<html>
<title> - ANTI-SEMITISM, RACISM AND DISCRIMINATION IN THE OSCE REGION</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





      ANTI-SEMITISM, RACISM AND DISCRIMINATION IN THE OSCE REGION

=======================================================================

                                HEARING

                               before the

                       COMMISSION ON SECURITY AND
                         COOPERATION IN EUROPE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 22, 2014

                               __________

 Printed for the use of the Commission on Security and Cooperation in 
                                 Europe

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   Available via http://www.csce.gov
                   
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-575                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE

                                                    HOUSE

BENJAMIN CARDIN, Maryland,           CHRISTOPHER SMITH, New Jersey,
  Chairman                             Co-Chairman
SHELDON WHITEHOUSE, Rhode Island     JOSEPH PITTS, Pennsylvania
TOM UDALL, New Mexico                ROBERT ADERHOLT, Alabama
JEANNE SHAHEEN, New Hampshire        PHIL GINGREY, Georgia
RICHARD BLUMENTHAL, Connecticut      MICHAEL BURGESS, Texas
ROGER WICKER, Mississippi            ALCEE HASTINGS, Florida
SAXBY CHAMBLISS, Georgia             LOUISE McINTOSH SLAUGHTER,
JOHN BOOZMAN, Arkansas                New York
                                     MIKE McINTYRE, North Carolina
                                     STEVE COHEN, Tennessee











      ANTI-SEMITISM, RACISM AND DISCRIMINATION IN THE OSCE REGION

                              ----------                              

                             JULY 22, 2014
                             COMMISSIONERS

                                                                   Page
Hon. Benjamin L. Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. John Boozman, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     4

                                 MEMBER

Hon. Steny Hoyer, Member of Congress from the State of Maryland..     7

                               WITNESSES 

Rabbi Andrew Baker, Personal Representative of the CiO on 
  Combating Anti-Semitism, Organization for Security and 
  Cooperation in Europe..........................................     4
Professor Talip Kucukcan, Personal Representative of CiO on 
  Combating Intolerance against Muslims, Organization for 
  Security and Cooperation in Europe.............................     9
Alexey Avtonomov, Personal Representative CiO on Racism, 
  Xenophobia and Discrimination, also focusing on Intolerance and 
  Discrimination against Christians and Members of Other 
  Religions, Organization for Security and Cooperation in Europe.    11
Azra Junuzovic, Deputy Chief of Tolerance and Non-Discrimination 
  Unit, Organization for Security and Cooperation in Europe......    15

                              APPENDICES 

Prepared Statement of Hon. Benjamin L. Cardin....................    19
Prepared Statement of Hon. Christopher Smith.....................    21
Prepared Statement of Hon. Alcee Hastings........................    22
Prepared Statement of Hon. Steny Hoyer...........................    24
Prepared Statement of Rabbi Andrew Baker.........................    25
Prepared Statement of Alexey Avtonomov...........................    31
Prepared Statement of Professor Talip Kucukcan...................    33
Prepared Statement of Azra Junuzovic.............................    35

 
      ANTI-SEMITISM, RACISM AND DISCRIMINATION IN THE OSCE REGION

                              ----------                              


                             JULY 22, 2014

  Commission on Security and Cooperation In Europe,
                                                    Washington, DC.
    The hearing was held from 10:03 a.m. to 11:03 a.m. EDT in 
Room 562 Dirksen Senate Office Building, Washington, D.C., 
Senator Benjamin L. Cardin, Chairman of the Commission on 
Security and Cooperation in Europe, presiding.
    Commissioners present: Hon. Benjamin L. Cardin, Chairman, 
Commission on Security and Cooperation in Europe. Hon. John 
Boozman, Commissioner, Commission on Security and Cooperation 
in Europe.
    Witnesses present: Rabbi Andrew Baker, Personal 
Representative of the CiO on Combating Anti-Semitism, 
Organization for Security and Cooperation in Europe; Alexey 
Avtonomov, Personal Representative CiO on Racism, Xenophobia 
and Discrimination, also focusing on Intolerance and 
Discrimination against Christians and Members of Other 
Religions, Organization for Security and Cooperation in Europe; 
Professor Talip Kucukcan, Personal Representative of CiO on 
Combating Intolerance against Muslims, Organization for 
Security and Cooperation in Europe; and Azra Junuzovic, Deputy 
Chief of Tolerance and Non-Discrimination Unit, Organization 
for Security and Cooperation in Europe.

  HON. BENJAMIN CARDIN, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cardin: Well, let me welcome you all to the Helsinki 
Commission. I expect we'll be joined shortly by some of my 
colleagues from the House side of the Commission. They have a 
little bit longer walk from the House side to get over here, 
but we welcome our three personal representatives to the OSCE 
chair on the tolerance agenda, and we always look forward to 
this hearing to get an update as to the circumstances within 
the OSCE region on tolerance.
    Quite frankly, we think it's more critical at this moment 
because of world circumstances, and we very much look forward 
to this hearing. The Helsinki Commission has worked long and 
hard on the tolerance agenda, and we take special note of our 
role in the creation of these three Personal Representatives to 
the OSCE Chair-in-Office.
    It was the work of the Helsinki Commission many years ago, 
first concentrating on the rise of anti-Semitism--and I do want 
to acknowledge the work of three of my colleagues--Congressman 
Hoyer, the chairman emeritus of the Helsinki Commission, 
Congressman Hastings, who was the Chairman of the Helsinki 
Commission for a good part of time, and Congressman Smith, who 
is now the House Chair of the Helsinki Commission. All three 
are laudable members. I take pride in my own participation in 
having the Helsinki Commission concentrate on the rise of anti-
Semitism to take that work to the OSCE parliamentary 
assemblies, and I remember many discussions with colleagues 
from other countries as to what we could do on an action agenda 
to combat anti-Semitism, and it led up to the Berlin conference 
on anti-Semitism that took place 10 years ago.
    The work that was accomplished at that Berlin conference--
and many of the people that are here were part of that, and I 
was proud to be part of the U.S. delegation to the Berlin 
conference and the good work came out of that meeting 10 years 
ago. There was an acknowledgment by the countries in the OSCE 
that there was a problem, and they needed to do something about 
it. So an action plan was adopted that included Holocaust 
education--to what good police work is involved in dealing with 
tolerance, the requests for information concerning hate crimes 
in all of our states was part--came out of the Berlin 
Conference. The responsibility of government leaders to speak 
out against intolerance came out of the Berlin Conference, and 
the Personal Representative for Combating Anti-Semitism was one 
of the results of the--of the Berlin Conference.
    As we know, we now have three Personal Representatives 
dealing with not just anti-Semitism, but dealing with anti-
Muslim activities and dealing with xenophobia and racism and 
anti-Christian activities, and ODIHR--they're here today has 
been the focal point for the coordination of the work dealing 
with tolerance.
    So today, we are updating what is happening, and we're at 
the 10th anniversary of the Berlin Conference, and we 
anticipate later this fall that there will be a gathering in 
Germany to assess where we have been in regards to combating 
anti-Semitism. And the other forms of intolerance--and I very 
much believe that they're--all three related--a community 
that's vulnerable to hate crimes against Jews is a community 
that's vulnerable towards hate crimes towards people of African 
descent is a community that is vulnerable to hate crimes 
against Muslims. It's a community that's vulnerable to hate 
crimes against Christian minorities, so it's all--and hate 
crimes against the Roma population. They're all very much 
related to these issues.
    But let me just point out, in regards to anti-Semitism, 
some of the most recent events that have me extremely 
concerned. There was the EU fundamental rights agency, last 
year, that did a survey that found that in three European 
countries--Hungary, France and Belgium, between 40 to 48 
percent of the Jewish population is in fear of their own 
safety, so much so that they are considering emigrating to 
Israel. That's an alarming number.
    The Anti-Defamation League surveyed 100 countries and said 
there is persistent anti-Semitic prejudice in the countries 
that were surveyed. We've seen violence in the United States--
in Kansas, three people were killed at a Jewish community 
center. In May, in Brussels, three people were killed outside 
of a Jewish museum. So it has really--we've seen the outbreak 
and concern. I had a friend who recently came back from France 
and told me that he could sense--he's Jewish, and he could 
sense the anti-Semitism as he was visiting that country--the 
outward feeling that you get when you know that you're not 
welcome in certain places.
    So it is a major area of concern, but here is what really 
has me concerned. Ten years ago, when we were talking about the 
tolerance agenda in Berlin, we knew that we had a problem with 
communities, but we knew that governments were on our side. 
They were prepared to take action to fight the intolerance. 
Today, we see governments taking actions that support the 
intolerance and are not openly working to fight intolerance. 
That is of great concern because I don't want to say we're at 
where we were leading up to World War II, but the problems 
leading up to World War II is when governments took direct 
action to support intolerance and prejudice, and we see those 
signs developing today in Europe, and that has us gravely 
concerned.
    In Hungary and Greece, extremist parties are associated 
with street militias. We know in Greece the problems of the 
Golden Dawn party in regards to open anti-Semitism. In Hungary, 
the Jobbik party, which is the second most significant party 
from the point of view of representation in that country, has 
taken direct steps to promote anti-Semitism.
    In Hungary, we've seen not only a monument that was erected 
to glorify a World War II anti-Semite, but we also see, in the 
middle of the night, Hungary set up a memorial to the 1944 
German occupation in a way that was offensive to the Jewish 
community. So there are direct governmental issues, and then, 
on June 2nd, the Supreme Court issuing a finding in Hungary 
that basically says that you can't criticize the Jobbik Party. 
These are all areas of grave concern.
    The State Department report verifies a lot of what we are 
saying here--the rise of xenophobia and anti-Semitic Jobbik 
Party, which has called for the creation of a list of Jewish 
public officials, repeated the historic blood libel against 
Jews and labeled Jews as a national security risk. So there are 
reasons for us to be concerned about what's happening by 
governments, not just communities--not just individuals, but 
what's happening by governments. We're seeing laws that are 
passed that inhibit Jews from being able to practice their 
religion on Kosher foods, on wearing a head covering. We've 
also seen it against the Muslim communities, we know, with the 
Burka restrictions that have been imposed that are offensive to 
Muslims and insulting to Muslims.
    So we are concerned about what is happening in the 
tolerance area--not only as it relates to Jews but as it 
relates to minorities, as it relates to the Roma population, 
the Christian population. I'd note that ODIHR is going to have 
a meeting this fall of people of African descent leaders. We 
appreciate the leadership that has been demonstrated there.
    The purpose of this hearing is to determine how we, the 
United States--how the Helsinki Commission, which, over a 
decade ago, led the charge in regards to OSCE's sensitivity to 
tolerance--how we again can provide the leadership so that OSCE 
can be a leader in government responsibility for promoting 
tolerance for all people. And with that, let me turn it over to 
Senator Boozman, and thank you very much for being with us 
today.

  HON. JOHN BOOZMAN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Boozman. Well, thank you, Mr. Chairman, for holding 
this very important hearing, and I certainly want to associate 
myself with your remarks. I think, in the interest of time, 
what I'd like to do is ask unanimous consent to put my 
statement in the record with votes and things like that, and 
then go ahead and----
    Mr. Cardin. I thank you very much, and I should point out, 
as Senator Boozman has already pointed out, that there will be 
a series of votes on the Senate floor beginning at around a 
quarter of 11:00 this morning, which--we will try to continue 
the hearing, depending upon the House participation, and I 
don't know what the vote situation is in the House, but if not, 
we will have to take a recess at that particular time.
    So with that in mind, let me turn to our three Personal 
Representatives who are here, and once again, thank you very 
much for being here, and thank you very much for your 
commitment on these issues. Rabbi Andrew Baker, the Personal 
Representative for Combating Anti-Semitism, well-known to our 
commission. Professor Talip Kucukcan--we thank you very much 
for being here--the Personal Representative on Combating anti-
tolerance and discrimination against Muslims.
    Alexey Avtonomov--sorry for how I must have mispronounced 
that--the Personal Representative on Combating Racism, 
Xenophobia and Discrimination, and also focusing on Intolerance 
and Discrimination against Christians and Members of other 
Religions, you have a broad agenda in dealing with all those 
particular issues. And Azra Junuzovic from the ODIHR. We 
appreciate you being here. We understand that you're a resource 
to answer the really tough questions that the three Personal 
Representatives wish to defer to you. So we appreciate your 
presence here and we appreciate the work of ODIHR.
    With that, we'll start with Rabbi Baker. As is the practice 
of our commission, your full statements will be made part of 
the commission record. You may proceed as you wish.

RABBI ANDREW BAKER, PERSONAL REPRESENTATIVE OF CiO ON COMBATING 
  ANTI-SEMITISM, ORGANIZATION FOR SECURITY AND COOPERATION IN 
                             EUROPE

    Mr. Baker. Senator Cardin, thank you very much. And thank 
you for your leadership in this entire issue. As you yourself, 
in your remarks, indicated--and I have a memory going back 
those 10 years and more--much of what has happened at the OSCE 
in the creation of now a full department at ODIHR to deal with 
tolerance and nondiscrimination leading up to significant 
conferences and the creation of our respective mandates really 
started here, and started with your efforts and that of your 
colleagues. And without that, I think none of this would have 
really emerged. So it really is a personal pleasure to be here.
    While it's a personal pleasure, we meet at a very difficult 
time. The ongoing conflict right now in Gaza has sparked anti-
Israel demonstrations in many places, with notably large 
numbers of angry protesters in several European capitals. Many 
are carrying placards and spewing rhetoric that's clearly anti-
Semitic. A week ago in Paris, crowds shouted ``Death to the 
Jews'' and laid siege, literally, to a synagogue with 200 
worshippers inside. It led the Interior Minister to impose a 
ban on some of these demonstrations, though they have still 
continued. You've had similar outbursts in other European 
capitals--cities, in Germany, in the U.K., in Italy.
    As you noted, at the Berlin conference 10 years ago a 
declaration was adopted, and that declaration stated that we, 
the collective countries, participating states then numbering 
55, declare unambiguously that international developments or 
political issues, including those in Israel or elsewhere in the 
Middle East, never justify anti-Semitism. While events taking 
place today in the OSCE region show how important it is to 
remember those words and to remind governments that they are 
part of that collective statement, they're a rebuke to those 
who would still seek to somehow excuse the anti-Semitism or 
rationalize it. And they're a clear call to political leaders 
to speak loudly and act quickly to condemn the anti-Semitic 
attacks and ensure that all available legal measures are taken 
to prevent further outbreaks.
    I'm pleased to note that even today at the meeting of EU 
foreign ministers in Brussels, there was a collective--a joint 
statement by three ministers--those of France, of Germany and 
of Italy--that essentially expressed this same position, that 
there is no place for anti-Semitism and that this--these 
demonstrations must be curtailed when they turn into anti-
Semitic acts and expressions, and that they said we will do 
everything in our countries together to ensure that all of our 
citizens can continue to live unmolested by anti-Semitic 
hostility, and in peace and security, which was an important 
intervention at this time.
    I would like to have--I would have liked at this meeting to 
be able to report to you on an extensive experience in this 
role as a Personal Representative. We are already six months 
past our appointment by the current Chair-In-Office. This is, 
unfortunately, our first joint visit to be taken. Another is 
scheduled in September for Denmark. We hope to have still 
another later in the year to Russia. But I think the importance 
of these issues show that there's much more that we could have 
been doing during these months that have already passed.
    I would like as well to point out--and you have a more 
complete report of this in the record that I did make my own 
visit to Ukraine in late April. It was responding to really 
what was an extraordinary situation at the time and the 
heightened attention that was being given and different parties 
making charges of anti-Semitism. That report has been 
completed. It's been issued. You have a full copy of it, which, 
if you'd like, we can--we can discuss in further detail. But 
one of the critical issues was separating out anti-Semitism 
that was really being fomented by provocateurs, by outside 
actors, from what was more indigenous, shall we say, to 
Ukraine. There are of course other troubling developments in 
this issue, in this area throughout the OSCE region, which I 
would at least quickly like to highlight.
    You mentioned the violence that took place earlier this 
year, the murders in Brussels at the Jewish museum. Frankly, it 
heightened the very real problem of Jewish community security. 
This is something that the OSCE took up at a high-level expert 
conference a year ago in Berlin resulting in a series of civil 
society recommendations--again, something you'd find appended 
to my full testimony. But what happened in Brussels points out 
the dilemma that Jewish communities confront. They have an 
enormous security burden. It's a combination both of potential 
terrorist attacks and what we see now, radical jihadists 
returning from Syria looking for local targets, trained, armed 
and, again, radicalized by that experience.
    Even when I met in my role with officials in the Interior 
Ministry of Belgium, they acknowledged that the security level, 
the threat level facing Jewish institutions, was similar to 
that facing the American embassies or the Israeli embassy in 
Brussels. But they have nothing like the security needed or the 
security that those institutions receive, so more really must 
be done to address this issue of community security.
    And as you noted, 10 years ago was the seminal Berlin 
conference of the OSCE and declaration that was issued at the 
time. And I'm pleased to be able to say that there will be a 
high-level 10th anniversary event. It is scheduled for Berlin. 
It should take place on November 11th through the 13th. It will 
include, at the beginning, a very full and robust NGO civil 
society forum. As you recall, that was a significant component 
10 years ago. I'll be in Berlin next week, hopefully to try and 
finalize the logistical aspects of this. But it's an event all 
the more looking at what's taking place today that should be a 
focus of energy, attended by, I would hope, another American 
delegation and by governments at a high level.
    We do know and expect the German foreign minister to 
preside; the Swiss Chair-In-Office, Federation Foreign 
minister, also to be present. And I hope our government will be 
there at an equally high level, again to be able to reiterate, 
to look back at the commitments that were made but in many 
cases unmet by various governments, and hopefully to try and 
focus attention and continue this really ongoing struggle.
    So let me thank you for this opportunity. And let me, as I 
close, just pay a special word of thanks to Representative 
Steny Hoyer, who was--as you said, he was here at the 
beginning, but he was really here before the beginning, I 
think--in moving these issues. So it's really wonderful to see 
him here today. Thank you, Senator.
    Mr. Cardin. Thank you, Rabbi Baker.
    Before Congressman Hoyer arrived, I referred to him as the 
Chairman Emeritus of the Helsinki Commission, and I think that 
is the appropriate title for Congressman Hoyer. During the days 
of the Soviet Union, he was the most outspoken member of the 
United States Congress on standing up for the rights of people 
within the Iron Curtain that had no voice, but for the work 
that was done here, and I was proud to be part of many of those 
delegations to Eastern Europe at the time to stand up for basic 
rights and--under the leadership of Congressman Hoyer, and the 
tolerance agenda clearly was forwarded by his leadership when 
he was chairman of the U.S. Helsinki Commission. So I'm going 
to interrupt at this moment and give Emeritus Chairman Hoyer an 
opportunity to be heard.

      HON. STENY HOYER, MEMBER FROM THE STATE OF MARYLAND

    Mr. Hoyer. Well, thank you very much, Chairman Cardin, and 
Senator Boozman, thank you very much for being here. Rabbi 
Baker, thank you for your comments, and witnesses, thank you 
for your not only being here, but for your focus, your energy 
and your intellectual power being applied to the issue of 
racism, anti-Semitism, and discrimination on the basis of 
irrelevant aspects of personality or gender or place. It's 
critically important that we live in a country that expresses a 
view that all men are created equal, and endowed by God with 
inalienable rights. Protecting those rights is an ongoing, 
daily experience for those of good will who want to see a world 
in which that principle is respected. So I am very pleased to 
be here with you. When I retire from Congress--Rabbi Baker, you 
said I was here before the beginning--I am old, but I was not 
here before the beginning. (Laughter.) But I appreciate what 
you meant by that, and thank you very much.
    But I have been involved in this process for a very long 
time, and when I retire from Congress 20 years from now or 
thereabouts, I will look back on--one of the most important 
aspects of my--some--now 34 years in the Congress of the United 
States--was my service on the Commission on Security and 
Cooperation in Europe and my participation with other nations, 
mainly in Europe on trying to bring the principles--
particularly Basket III of the Helsinki Final Act to 
realization as realities in countries, not simply articulated 
principles.
    I also want to take the liberty of--I think you saw me come 
in and embrace a number of these staff members with whom I have 
worked almost all of my Congressional career and who have 
brought such extraordinary expertise to this effort and such 
passion to this effort, so I thank them very much for their 
continuing service. And those who are new, I thank them as well 
for involving themselves.
    I want to thank the Commission for conducting this critical 
hearing, as well as to extend my gratitude to the three 
witnesses, and to you, Madam Secretary, each of whom serves a 
critical function in advancing the OSCE's mission of protecting 
freedom and democracy. The Soviets thought that the Helsinki 
Final Act, signed in 1975, were simply words. Vaclav Havel gave 
a speech to a joint session of Congress in which he said he 
thought Czechoslovakia and Helsinki activists were empowered 
that ultimately led to the fall of the Iron Curtain. Nowhere is 
that mission, signed onto in '75, more visible today than in 
Ukraine, where OSCE personnel have helped oversee elections, 
monitored the border, and reported on key security 
developments. OSCE is, in fact, on the front lines of the 
somber work of collecting bodies from the wreckage of Malaysian 
flight 17 and securing the crash site.
    In the Helsinki Final Act, signed in '75, the participating 
states made this declaration: the participating states will 
respect human rights and fundamental freedoms, including the 
freedom of thought, conscience, religion or belief for all, 
without distinction as to race, sex, language or religion.
    It went on to say that they recognize the universal 
significance of human rights and fundamental freedoms, respect 
for which is an essential factor in the peace, justice and 
well-being necessary to ensure the development of friendly 
relations and cooperation among themselves, as among all 
states.
    The Helsinki Final Act, of course, was a reaction to the 
horrific concept that how a nation treats its own people is not 
the business of any other nation. We have rejected that 
thought, that we have adopted, essentially, the international 
premise that we are our brother's keeper. Your work, as 
Personal Representatives to the OSCE on these issues is 
integral to the organization's overall effort.
    Never has your work been more important--and I speak of the 
OSCE and this commission--anti-Semitism and other forms of 
racism and xenophobia have been on the rise in recent years in 
the OSCE region, the region where it least ought to be on the 
rise. It ought not to be on the rise anywhere at any time for 
any justification, but least of all in Europe and in this 
nation. In recent days, we have seen disturbing protests in 
France and elsewhere that have included anti-Semitic attacks.
    I sent a letter last week to the president of the Abravanel 
Synagogue in Paris expressing solidarity with his congregation 
in light of an incident on July 13th in which a mob protesting 
Israel's defensive actions against Hamas besieged the synagogue 
and began throwing stones and other objects at the building and 
its security guards.
    We have seen this play before. It must not have another 
act. At the same time, we hear too frequently of anti-Semitic 
and other racist chants at sporting events across the 
continent, as well as entertainers who make comments 
disparaging the Holocaust and celebrating Nazism, one of the 
most horrific ideologies pursued by mankind. We've seen what 
these forces can do, and we must never forget the tragedies of 
the 20th century that took so many innocent lives.
    Russia's proxy war to defend minorities, as they call it, 
in Ukraine, is particularly offensive in light of this history. 
It cuts to the very order the OSCE and its supporters. The 
first and second World Wars were instigated, in part, as a 
result of the pretext of protecting ethnic minorities abroad. 
My view is that this Commission--this country--people who 
express the principles of freedom and justice and fairness need 
to speak out and to act out to prevent this growth and the 
manifestations of this hate that it reflects. I thank the 
Commission for continuing to make this issue a priority and for 
making a strong stand against these forms and any forms of 
hatred that threaten to undermine our freedom.
    Thank you, Mr. Chairman.
    Mr. Cardin. Congressman Hoyer, thank you so much for your--
for your statement. More importantly, thank you for your 
commitment to the tolerance agenda. We will now turn to 
Professor Kucukcan, and we look forward to your comments.

PROFESSOR TALIP KUCUKCAN, PERSONAL REPRESENTATIVE OF THE CiO ON 
    COMBATING INTOLERANCE AGAINST MUSLIMS, ORGANIZATION FOR 
               SECURITY AND COOPERATION IN EUROPE

    Ms. Kucukcan. Well, thank you very much, Mr. Chairman. I am 
thankful to those who are organizing the Commission for giving 
us the opportunity to express our views and share our 
recommendations. I will be reporting on what's happening with 
the Muslims in the OSCE region. First, I would like to share 
the findings of some of the large-scale research carried out by 
the EU Fundamental Rights Agency, Pew Research and Gallup that 
show intolerance against Muslims, and also, Islamophobia, is on 
the increase in the OSCE region.
    This is taking place, in fact, in the context in which 
Islam and Muslims are seen in a monolithic fashion, and the 
perceptions, especially perpetrated by the leading political 
figures in some countries and in the media--especially in 
recent years--in social media are contributing to the rise of 
monolithic and essentialist perceptions of Muslims. And in 
those perceptions, what we see is that Islam and Muslims are 
usually associated with violence and intolerance, and Muslims 
are seen as incompatible with Democratic values, and Western 
values are usually seen as superior when it comes to Islam.
    And the Runnymede Trust Report, which was established in 
Britain in the 1960s, also indicates that there are widespread 
misinformed and biased views of Muslims, and sometimes, of 
course, those views and perceptions are translated into acts 
among the public. And also, Muslims especially, where they are 
in minority, are seen as not being able to integrate into the 
society--especially, this is the case in France and in other 
places where some of the Muslim traditions are not allowed to 
be practiced, like ritual slaughtering, head scarf issues like 
the Chairman has alluded to, and also circumcision issues. 
These are fundamental rights of the Muslims but, in some cases, 
they are not able to practice. I think there are similar issues 
with the Jewish communities around these areas.
    Maybe one can also see that some areas can also be seen 
with other communities, especially when it comes to ethnicity, 
race and religion. These are the issues that should be brought 
together. And maybe cooperation could be established in order 
to fight intolerance and discrimination on the basis of faith 
and religious belongings in the OSCE region.
    These essentialist perceptions also led to the 
securitization of Islam and Muslims in Europe and elsewhere, 
even in this country, especially since 9/11. And what we see is 
that there's a trend towards the securitization of Islam, 
representing Muslims as threats to Democratic values. 
Therefore, what we have seen in those areas, is that anti-
terror laws curtail some of the civil liberties, and religious 
profiling has started in some of the OSCE countries.
    In Germany, for example, we have never seen before the 
search of the mosques. In the last couple of years, we have 
seen the rise of intelligence gathering on mosques and imams in 
several countries that have also, I think, a violation of basic 
human rights for Muslims. These kinds of profiling and 
intelligence gathering on the basis of religion continue in 
different degrees today.
    Despite the fact that Muslims are concerned, also do not 
approve the radical views, especially as seen in the last Pew 
poll which indicate that more than 80 percent of Muslims are 
concerned with radicalism and they do not approve of it. But 
generally in the media, in the political discourse, Muslims are 
seen as extremists and I think time to time that leads to 
feelings of intolerance against Muslims in many places.
    And especially in the last European Parliament's elections, 
we have seen the rise of far-right movements and racist parties 
in Europe. And they have--especially in three countries, 
Britain, France and Denmark--they have expressed a hatred 
against Muslims and other minorities. And social media is an 
important site where one should look at very carefully.
    There are, of course, different sites where we can see the 
intolerance and anti-Muslim activities in the world. For 
example, instances of anti-Muslim rhetoric by politicians and 
public figures posting on the Internet and other forms of 
social media. The nexus of intolerance, hate--or crime--one 
might call it cyberhate and intolerant discourse against 
Muslims is an issue that participating states need to address.
    While acknowledging the challenge for participating states 
to ensure the freedom of expression, they also have a duty to 
promptly renounce hate speeches by public officials and ensure 
robust intervention whenever comments expressed pose a threat 
to Muslim individuals and communities. What we see actually in 
many European countries and in OSCE countries, there is not a 
regular reporting of the hate crimes against Muslims. I think 
only in several countries--Austria, Serbia, Sweden and the 
United States--do you have such activities.
    Therefore Muslims are not able to--or not encouraged to 
report some of the assaults and threats against imams or 
physical attacks on Muslim women wearing head scarf and 
desecration of mosques and other Islamic sites simply because 
they believe that their complaints will not be taken on board 
by the authorities. I would like to end up with a set of 
expectations and recommendations that could be taken further.
    First, it should be acknowledged that the intolerance 
against Muslims is not a problem of--only for Muslims. It is a 
human rights problem concerning everyone. Second, integration 
policies, especially in places where Muslims are the minority, 
should address the social and economic needs of Muslims in the 
countries that they are residing. Especially after the economic 
crisis in many countries, we see that minorities, including 
Muslims, are becoming targets increasingly.
    The third, senior government leaders should send immediate, 
strong, public and consistent messages that violent crimes 
which appear to be motivated by prejudice and intolerance 
against Muslims will be investigated thoroughly and prosecuted 
to the full extent of the law.
    Fourth, recognizing the particular harm caused by violent 
crimes, governments should enact laws that establish specific 
offenses or provide enhanced penalties for violent crimes 
against Muslims. We have seen, for example, that is a welcome 
development in many countries, the Holocaust or denial of 
Holocaust or anti-Semitism is a punishable crime. Therefore, 
Islamaphobia or hatred against Muslim on the basis of religion 
should be a punishable crime as well.
    Fifth, governments should ensure that those responsible for 
hate crimes against Muslims are held accountable under the law, 
that the enforcement of hate crime laws is a priority for the 
criminal justice system and that the record of the enforcement 
is well-documented and published. Sixth, governments should 
maintain official systems of monitoring and public supporting 
to provide actual data for informed policy decisions to combat 
violent hate crimes against Muslims. These are taking place, 
but on a very minor level, not sufficient enough.
    Seventh, governments should conduct outreach and education 
efforts to Muslim communities and civil society groups to 
reduce fear and assist victims, advance police-community 
relations, encourage improved reporting of hate crimes to the 
police and improve the quality of data collection by law 
enforcement buddies. Lastly members of parliament and local 
government leaders should be held politically accountable for 
bigoted words that encourage discrimination and violence and 
create a climate of fear for minorities, including Muslims. 
Thank you for your attention.
    Mr. Cardin. Well, Professor, thank you for your testimony. 
I think your recommendations are extremely important to us and 
we know that we've taken the issue of hate crimes, that you 
need to know--you need police training and you need to be able 
to identify hate crimes. And we have to have statistics on it. 
And that's one of the major efforts that we've made in the 
United States at the national level. And we thank you so much 
for your testimony.
    We now turn to Mr. Avtonomov. Thank you very much for being 
here.

ALEXEY AVTONOMOV, PERSONAL REPRESENTATIVE OF THE CiO ON RACISM, 
XENOPHOBIA AND DISCRIMINATION, ALSO FOCUSING ON INTOLERANCE AND 
    DISCRIMINATION AGAINST CHRISTIANS AND MEMBERS OF OTHER 
 RELIGIONS, ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

    Mr. Avtonomov. Thank you very much for giving me the floor 
and thank you for the invitation. I think it's very important 
for us just to have a joint visit in the United States and to 
discuss all these problems. Thanks, I would like just to turn 
to my colleague and thank Helsinki Commission for this meeting 
and for the discussion.
    My mandate is one of the most--the vastest, the broadest 
among all three Personal Representatives. And that is why I 
don't mean just to repeat what they have already said. And I 
think that it's very important just to stress that the hate 
crimes and the hate speech is rising all the time. And not long 
ago, when the thought that xenophobia and hate crimes might be 
eliminated completely, but unfortunately during the last years, 
especially during the economic crisis period, we noticed that 
there was a constant rise of the hate speech and trying to 
blame all the problems upon those who are minorities from this 
or that point.
    I mean, just ethnic minorities, language minorities, 
religious minorities and so on and so forth. And so it's a 
great problem. I'm very thankful to ODHIR, who is preparing 
annual reports on the hate crimes. And this report gives us a 
lot of information in this field and shows that all the--all 
the problems are more acute during the economic crisis and so 
the economic difficulties also make a great contribution to the 
rise of xenophobia and discrimination and hate crimes.
    I'm very grateful just that Romani ethnicity was mentioned 
as well because they are also victims. During the second World 
War they were, along with Jews, they also were victims and 
proclaimed just to be eliminated completely--they were two 
nations who were proclaimed by Nazis to be eliminated--Jews and 
Roma. It's also problem for us. I'm trying just to find 
information about Roma from the United States. I understand 
that probably there is not any problem, but we know that we 
need some information to understand what is going on.
    I am very grateful for any other information about, for 
example, people of African descent, all efforts and all 
affirmative actions that were just made by the United States. 
Still in this field, especially in the field of justice 
assistance to the OSCE, to provide some--to provide research 
work and roundtables dealing with people of African descent, 
all efforts and all affirmative actions that were just made by 
the United States. Still, in this field, especially in the 
field of just assistance to the OSCE to provide some--to 
provide research work and roundtables dealing with people of 
African descent, I think that's important, and the United 
States shows us an example.
    Because of the information that were collected inside the 
United States, we know better the situation now as well actions 
in favor of--in favor of elimination of discrimination of 
people of African descent, but still are narrow. And we receive 
information from different NGOs that the structural 
discrimination still exists in the United States and in many 
other countries of the OSCE. But I think that the collection of 
information is one of the main tasks, just to understand--to 
understand the problem and just to find the solution for them--
for the problem.
    So I think that, as well, Christians are considered to be 
dominant religion in the majority of OSCE countries, but 
still--but actually we're faced with the problems of anti-
Christian actions as well, and not only from a--anti-Semitic 
but as well anti-Christian, which is probably surprising. But I 
think that any problem which is not faced by the people, and 
the problem which is not tried to be resolved, may arise and 
may bring us to the difficult situations.
    Unfortunately, the majority of the OSCE countries, despite 
of the fact that they proclaimed collection of data, didn't 
collect enough data. And I know that only a few countries are 
collecting the data. And according to the--to the Holy See, for 
example, during the last--during the--during the previous year 
there were 12 actions in the OSCE countries which has anti-
Christianic nature, different actions in the different fields. 
But I think that the struggle against any kind of xenophobia 
and intolerance may bring us to the situation of better 
understanding of different religions, different ethnic groups 
and different linguistic groups, which is very important.
    So I don't mean just to be very talkative. We don't have a 
long time to discuss all the questions. So that's why--let me 
just to thank once more the Helsinki Commission for this 
invitation and for the discussion. Thank you very much.
    Mr. Cardin. Well, thank you, all three of you, for your 
contributions. And it's good to have all three of you together. 
I know that's the desire of the Chair-In-Office that we share 
the information from all three of the Representatives, so we 
appreciate that.
    I want to start, if I might, on an issue that has been 
brought up, and that is when international events occur it is 
used at times to justify intolerance. And I recall very vividly 
after the attack on our country on September the 11th that the 
Muslim community was particularly vulnerable. I was very proud 
of leaders of our country appearing openly with the Muslim 
community to express support and to act in a responsible 
manner. I've called--I visited several mosques during that 
period of time.
    And I think that it's important that leaders stand up 
during these particular moments. I remember during the Berlin 
conference, the intervention by the Vatican dealing with no 
justification for historical events for anti-Semitic 
activities, and I thought that was an incredibly important 
moment in dealing with dispelling international events as 
justification for intolerance. Recently, obviously with the 
problems between Hamas and Israel, that could affect, as Rabbi 
Baker has pointed out, the anti-Semitism in Europe particularly 
but also anti-Muslim activities in the United States.
    So are we seeing government leaders take positions very 
clearly that there is no justification for anti-Muslim or anti-
Semitic activities during these upticks of international events 
that could be used to justify such actions? Where are the 
leaders, Rabbi Baker?
    Mr. Baker. Well, we've seen some responses. I guess the 
question is, how quickly did they come, how forcefully, and by 
how many? Several people referenced what has gone on in France. 
And you did have, over the weekend, a very strong statement by 
the French Prime Minister, another statement by President 
Hollande. But as you pointed out, French Jewry, the largest 
community in Europe, has an enormous level of anxiety, even 
questions about their future in the country. So these are 
important statements.
    I referenced earlier a joint statement by three foreign 
ministers. But for the most part, I think these almost are the 
exceptions. It's not quick and genuine to see these responses. 
They still need to be encouraged. I think the culture may be a 
different one than what we're used to in the United States 
where a lot of church leaders, opinion leaders, others more 
reflexively will speak out. I think that's something that we're 
trying to--trying to push, trying to encourage, again, 
reference to that declaration 10 years ago.
    One of the other dilemmas, just to let me cite--even with 
these strong words, what we've seen in places--France again a 
good example--political leaders sometimes describe this as a 
manifestation of intercommunal tension, as though these are two 
minorities outside of the mainstream who are somehow battling 
with each other. Nothing could be further from the truth.
    First of all, it separates them, certainly Jews in France, 
from understanding, as full and longtime citizens of the 
country, and also suggesting a kind of equivalency here, which 
is, frankly, not the case. So I think words are important, 
speaking out quickly is important, but also caution in trying 
to somehow deflect this as though these are intercommunal 
fights when in reality they're not.
    Mr. Cardin. Are we doing enough in the United States with 
leadership to protect the Muslim community during these times?
    Ms. Kucukcan. Certainly there has been responsible 
leadership, but also the research indicates that there has been 
some religious profiling, et cetera. I think when we compare 
the United States to European countries, we have seen that the 
United States provides a wider atmosphere for freedom of 
religion for organizations, for, you know, communities, et 
cetera, et cetera. But the 9/11 has a spillover effect all over 
the world. I think that is what matters.
    And maybe the United States overcomes this issue, but if 
you look at some of the OSCE countries, still we see that 
Muslims are seen as a threat, if you look at the laws and 
regulations, especially anti-terror rules for example. Yes, of 
course these states are responsible to protect the nations and 
citizens, but that should not be at the expense of, I think, 
civil rights. That's my observation. Thank you.
    Mr. Cardin. Several of you mentioned hate crimes in your 
presentations. And of course ODIHR is responsible to get 
statistics on hate crimes among the OSCE states. So perhaps I 
could start with--you have the largest agenda of any of the 
three Personal Representatives. How satisfied are you of the 
information that is currently available by collection by ODIHR? 
And then perhaps I'll allow you some rebuttal time. Yes? Or 
maybe it's not rebuttal; maybe it's supportive time. Yes.
    Mr. Avtonomov. So, I--even on mine, I think just also to 
contribute to what my colleagues said, what is necessary 
actually? It's not only just collection of data, but I think 
it's not necessarily just only punishment of those 
perpetrators--which is important, of course--but it is only 
some kind of the struggle of post-action. I think what is very 
important actually, it is just promoting tolerance and 
understanding in the educational system.
    In my opinion, it's not quite enough efforts in the OSCE 
countries just to promote this mutual understanding of the 
diversity and mutual understanding of different communities. So 
separation of community is one of the ways just to promote 
intolerance while cooperation among different communities. 
Understanding their identities, their own identities, and 
recognizing the identity of others are the most important just 
to overcome for these problems and to promote tolerance, first 
of all, because tolerance is--this is the best way to--the 
cooperation. The first step is tolerance but the next is 
cooperation and solidarity among different communities 
without--with different identities, and maintaining these 
different identities and diversities.
    So thank you very much.
    Mr. Cardin. Let me see first if Senator Boozman wants to 
make a comment, because I know he's going to need to leave to 
the floor soon because there's a vote on.
    Mr. Boozman. Let me just ask one question.
    Rabbi Baker, we understand from a report by Human Rights 
First, coming out this week, that Russia has been courting the 
anti-Semitism far right parties across Europe, and that eight 
of the far-right parties that were elected to the European 
Parliament in May are avowedly pro-Russian. At the same time 
Moscow is accusing the nationalists in Ukraine of being anti-
Semites, and it is turning a blind eye to anti-Semitism in its 
own youth organization, Nashi. Do you have any insight into how 
Russia is using the anti-Semitism issue in Europe and to the 
extent that Russia supports anti-Semitic European parties? And 
how might the United States respond?
    Mr. Baker. Well, of course, I realize there is a challenge 
in responding to Russia on so many fronts these days, this is 
hardly first among them. But it really was to a degree one of 
the reasons that I made a visit to Ukraine in late April 
because we saw there certain charges, accusations, and we saw a 
number of violent anti-Semitic incidents, which, frankly, had 
really been absent in Ukraine for some time. So part of the 
difficulty was sorting through was clearly appeared to be, and 
at least in these violent incidents, provocations that, 
according to most sources and certainly virtually everyone in 
the Jewish community in Ukraine, were probably traced to at 
least pro-Russian elements in society. And clearly, the Russian 
media reporting on events in Ukraine twisted many things out of 
basic reality to suggest, again, a much higher degree of anti-
Semitism in the country and rhetorically painting the interim 
leaders at the time as being Nazis and right extremists.
    Here again I think there is an element in Ukrainian 
society, a nationalist element, that has been anti-Semitic, 
that has posed challenges, certainly to a correct view of 
history and the Holocaust in Ukraine. But I think this has been 
enormously exaggerated as well, as its reach for those 
nationalist strongly anti-Semitic reasons, its reach in society 
has been quite, quite limited. And so ironically, Jews in 
Ukraine were expressing a high degree of optimism in the future 
for the Jewish community provided that the larger challenge 
with Russia would be resolved or settled. So I think there was 
a lot in the arsenal coming from some of these pro-Russian 
voices--again, related to, perhaps stemming from sources in 
Moscow--that clearly exaggerated and exacerbated the 
situation--at least vis-a-vis Ukraine; I don't have quite the 
same intelligence when it comes to other countries.
    Mr. Boozman. Thank you, Mr. Chair.
    Mr. Cardin. Thank you.
    Ms. Junuzovic, would you just brief us as to the status and 
how satisfied ODIHR is on the information you're receiving from 
the member states on hate crimes?

       AZRA JUNUZOVIC, DEPUTY CHIEF OF TOLERANCE AND NON-
DISCRIMINATION UNIT, ORGANIZATION FOR SECURITY AND COOPERATION 
                           IN EUROPE

    Ms. Junuzovic. Thank you very much. I would gladly do so.
    I would like to add that we've been tasked to serve as a 
collection point for the information on hate crimes in the OSCE 
region, and we've seen that since 2008, when we started 
publishing our reports, there has been an improvement in the 
level of the awareness by the participating states, which on 
one hand should be acknowledged and should be applauded, but at 
the same time, what we are seeing that is being done throughout 
the region, it's not enough. Very often the data that we 
receive on hate crimes that are targeting Jews or Muslims are 
very scarce. They are not very comprehensive. There is no clear 
disaggregation of data, and very often it's not clear where 
further actions need to be taken.
    I should also add, when it comes to data collection, yes, 
it's immensely important, but it's also immensely important 
when it's put into context, that we need data to be able to 
formulate adequate policies so that for example, when a tax on 
Jewish places of worship or Muslim places of worship or 
Christian places or worships and--when they take place, that 
this data is used to protect the communities and individuals at 
question.
    So I think for us, data that we receive is certainly not 
enough, and what we see as really important is that we continue 
training police, prosecutors, criminal justice system, that 
they are able to recognize and monitor hate crimes, and that 
also we are able to train civil society so that they have the 
capacity to also work together with the criminal justice system 
on trying to address this issue adequately.
    Thank you.
    Mr. Cardin. Well, what I would offer to you is the help of 
this Commission to further the--your work. We recognize some 
countries are doing a great job; others are doing a mediocre 
job. And I think it's important to share best practices. And I 
would invite the help of our Commission and our embassy in 
Vienna to do what we can to share what countries need to do on 
police training and on compiling information so that the work 
of our Personal Representatives can be more informed.
    Ms. Junuzovic. Thank you very much for your support. And I 
should also just use this opportunity to thank the U.S. 
government for the ongoing support that we have received on 
many different fronts, also with the financial contributions to 
our work. And we will certainly will be relying on your 
support.
    Mr. Cardin. One of the greatest challenges here is how we 
divide the right of freedom of speech, freedom of expression, 
freedom of political participation with intolerance activities. 
And that's particularly difficult for the United States because 
we have the constitutional protections in our First Amendment 
to guarantee those rights to all of our citizens. And I think 
where the three of you can be most helpful to us is helping us 
with guidance as to when you cross the line on your unalienable 
rights to express your views and participate in the political 
process and when you are involved in activities that need to be 
condemned and spoken out against because of its anti-Semitic, 
anti-Muslim, anti-tolerance issues. So any way you could help 
us in that, I would certainly appreciate that.
    I have just an additional comment to make, and if you want 
to respond, Rabbi Baker, I'll give you a chance. And that is: 
In Hungary, why would 48 percent of the Jewish people there 
feel like they're unsafe? Is there--here we have a NATO ally, a 
country that we thought was a--on a strong path towards the 
principles of OSCE--48 percent, the largest in Europe. Largest 
Jewish population, large Jewish population there. That's a huge 
number of people that feel their government's not there to 
protect their rights to be Jews.
    Mr. Baker. Yeah, I think you're referring to the FRA survey 
where 48 percent had suggested they considered emigrating 
during these last several years. And as you say, it's the 
largest Jewish community in Central Europe--100,000, 120,000 or 
more--where there's been a genuine revival, really, of Jewish 
life and activity.
    I think it's a combination of two general pieces. First, 
we've seen the rise of the Jobbik party, an extremist, far-
right, anti-Semitic party. So it's taken what was really a 
vicious anti-Semitic, crude anti-Semitic rhetoric you might 
have heard only on street corners and brought it right into the 
halls of parliament. But you also have a government, a center-
right government, as it will describe itself, the Fidesz 
government, which has both courted the votes of the Jobbik 
party, so in political campaigns plays a certain--within limits 
one has to say, but a certain nationalist card, and also has in 
various often public ways suggested that there ought to be a 
somewhat different historical narrative about the Holocaust, 
which adds to the insecurity and uncertainty that Jews in 
Hungary feel, as though even this history is no longer settled. 
So there have been some provocative acts and statements.
    And it leads, again, to a sort of message that says--and 
Hungary, by the way, is a very homogenous society, so Jews and 
Roma are perhaps identified as almost the only minority groups. 
But the Jews in Hungary are very Hungarian-focused, assimilated 
community, one that has done so with pride. So these efforts to 
somehow push them outside the mainstream of Hungary--Hungarian 
population, thought, culture--has I think been a main 
contributor to the sense of anxiety that was reflected in this 
survey.
    Mr. Cardin. Yeah. Well, let me thank you for those 
comments. And I thank all four of you for your participation 
here.
    It--for your convenience, we're going to adjourn the 
hearing rather than keep it open during--via lengthy recess; it 
would take at least 45 minutes. But I do have other questions 
for you, and I assure you that through the Helsinki Commission, 
we will be in touch to figure the best agenda to move forward. 
I think Congressman Hoyer said it best that the Helsinki Final 
Act is probably best known for its advancements of human 
rights. And quite frankly, I think the work of the three 
Representatives are critically important to that. I know that 
Chair-In-Office is looking at ways to make the--this--your work 
more efficient and effective, and I can assure that the U.S. 
Helsinki Commission will weigh in very strongly to maintain a 
focus on the agenda that the three of you represent. We 
strongly support your mission. We strongly support the work 
that you do. We want to give you more tools rather than less to 
be able to accomplish your objectives. And with that, again, we 
thank you very much for your work. We thank ODIHR for its 
presence here. And the committee will stand adjourned.
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


Prepared Statement of Hon. Benjamin L. Cardin, Chairman, Commission on 
                   Security and Cooperation in Europe

    In 2002, the continuing phenomenon of anti-Semitism--indeed, its 
intensification--prompted me to work with other members of the Helsinki 
Commission and the OSCE Parliamentary Assembly to push for the OSCE to 
treat anti-Semitism and anti-Jewish violence as specific region-wide 
phenomena, particularly in light of the Holocaust. As a result of these 
efforts, in 2004 the OSCE convened a conference on anti-Semitism in 
Berlin. That meeting was a pivotal event in the effort to combat acts 
of extremism.
    Most importantly, it produced a declaration that condemned acts 
motivated by anti-Semitism and other bias-motivated hate crimes, led to 
an OSCE commitment to monitor and collect hate crimes data, and paved 
the way for the appointment of three Personal Representatives appointed 
annually by the OSCE Chair-in-Office to focus on combating anti-
Semitism, discrimination against Muslims, racism, xenophobia and other 
forms of religious intolerance, especially when that intolerance 
manifests itself in acts of violence.
    Unfortunately, the challenges before us have not abated in the past 
decade. I am most profoundly alarmed by the increased instances of 
violence targeting people who are Jewish, who are believed by their 
attackers to be Jewish, synagogues, or other Jewish community 
buildings. On Passover eve in April, three people were murdered in 
Kansas outside of Jewish community centers. Three more people were 
murdered at the end of May at the Jewish Museum in Brussels. These 
attacks come when the pain and terror from the 2012 murder of four 
adults and three children at a Jewish school in Toulouse is still so 
profoundly felt. Last week, two synagogues in Paris were attacked. 
These horrible incidents illustrate that the physical protection of 
Jewish communities and their institutions is critical and more must be 
done to prevent such atrocities.
    I am also alarmed by the electoral successes of extremist parties 
in a number of European countries--not only in the most recent European 
Union Parliament elections, but in national and local elections as 
well. Two countries in Europe, Hungary and Greece, have extremist 
parties associated with street militia. All of Greece's Golden Dawn MPs 
are now facing a variety of criminal charges, from attacks on 
immigrants to one case of alleged murder. The racist remarks of a 
Polish MEP in the European Parliament last week illustrate continuing 
prejudice towards people of African descent in the region.
    Most dangerously, extremism has also bled into the ``mainstream.'' 
Years of anti-Roma rhetoric crudely stereotyping Roma as criminals, 
sometimes voiced by officials at the highest levels of government, has 
fueled an escalation of vigilante attacks and other repressive measures 
against Roma.
    While acts of violence may be our greatest concern, they are not 
our only concern. We should pay particular attention to the patterns of 
intolerance that contribute to a climate in which violence may 
ultimately flourish. Measures to restrict the production of halal and 
kosher food, to ban male circumcision, to restrict religious head 
coverings or other symbols of faith or even architectural features such 
as minarets--are discriminatory. But more than that, I believe that the 
political discourse that has accompanied the debates over these 
measures has actually contributed to intolerance and bigotry.
    Clearly, 10 years after the adoption of the 2004 Berlin Declaration 
and a decade into the OSCE's work on these specific issues, a great 
deal remains to be done. I hope the OSCE participating States meet this 
fall to review, re-examine, and re-commit to efforts to combat anti-
Semitism and other forms of bigotry. The escalation of violent acts 
clearly demonstrates that more concrete action is needed.
    Finally, I want to thank the Swiss Chair-in-Office for supporting 
the work of the three Personal Representatives and committing early in 
this year to facilitating this hearing.
 Prepared Statement of Hon. Christopher Smith, Co-Chairman, Commission 
                 on Security and Cooperation in Europe

    More than a decade ago, I and my colleagues on the Helsinki 
Commission began efforts to address intolerance in the OSCE region. In 
2002, I chaired a Commission hearing on anti-Semitism to address a 
spate of violent attacks on the Jewish community in France and 
elsewhere in the OSCE region.
    Following that hearing, I and fellow Commissioners joined other 
OSCE parliamentarians to begin a concerted effort to press for an OSCE 
solution. Our efforts resulted in the OSCE's appointment of the three 
Personal Representatives who are here today, the establishment of a 
Tolerance Unit at ODIHR in 2004, and the convening of regular 
conferences over the following years monitoring efforts to combat anti-
Semitism and other forms of intolerance in the region.
    The first of these conferences was the seminal Berlin Conference 
which for the first time recognized and set agreed upon standards by 
which OSCE participating States should combat anti-Semitism. These OSCE 
efforts were further complemented by legislation I advanced here in the 
United States creating a Special Envoy to Monitor and Address Anti-
Semitism around the world within our State Department.
    Though this year marks the tenth anniversary of the Berlin 
Conference, the recent murders in my own country, Belgium, and France 
targeting the Jewish community sadly attest to the continued presence 
of anti-Semitism in the region. Additionally, reports from the 
Department of State's Special Envoy at subsequent hearings I have held 
in the House Foreign Affairs Committee indicate that attacks on 
synagogues, Jewish cultural sites, and cemeteries are a global 
phenomenon with no signs of abating. Similarly, in my role as a member 
of the Interparliamentary Coalition for Combating Anti-Semitism's 
Steering Committee, I have identified the continuance of anti-Semitic 
rhetoric by elected officials as a catalyst for intolerance in the 
region.
    Beyond commemorating the tenth anniversary of the Berlin 
Conference, there must be a concerted effort by OSCE participating 
States to strengthen efforts to combat anti-Semitism.
    In addition, these efforts must be paired with other OSCE work. 
Roma continue to be subjected to profound prejudice that, as Pope 
Francis recently observed, leaves Roma especially vulnerable to abuse, 
including new forms of slavery. Last fall fourteen men attacked and 
attempted to throw an Afro-Swedish father, walking with his 18 month 
old son over a bridge in Malmo, Sweden. Attacks on Muslim women in the 
United Kingdom have skyrocketed. Intolerance against Christians remains 
a grave problem. Although the most deadly forms of anti-Christian acts 
have occurred outside the OSCE region, anti-Christian views also find 
expression within the OSCE participating States.
    I look forward to your testimony today to determine not only 
continuing challenges in your respective mandates, but also given the 
OSCE's decade long fight, how best to address the problem moving 
forward. I welcome your review and thoughts on the matter.
Prepared Statement of Hon. Alcee Hastings, Commissioner, Commission on 
                   Security and Cooperation in Europe

    ``frankly it is to protect the industry of the north from the 
competition of the cheap labor from the south and four million human 
lost jobs. Well it was four million n-word, but now we have twenty 
million Europeans who are the negros of Europe, twenty million young 
people are negros from Europe. We are treated like negros and we must 
destroy the minimum wage''
    --quote by MEPJanusz Korwin-Mikke, July 18 European Parliament 
debate on the minimum wage
    This quote is from a public debate that took place last Wednesday 
in the European Parliament and a shameful example of the continuing 
prejudice in the OSCE region that makes today's hearing so necessary.
    Mr. Chairman, I am pleased to welcome the Personal Representatives 
here today to not only discuss their work in Europe, but also the 
numerous issues impacting minority communities in our own country that 
they will be addressing during their official visit to the United 
States.
    It is timely that your visit to assess tolerance and discrimination 
in the United States is taking place this month on the 50th anniversary 
of the Civil Rights Act. A historic piece of legislation, the Civil 
Rights Act was signed into law July 2, 1964 by then President Lyndon B. 
Johnson to outlaw major forms of discrimination on the basis of race, 
ethnicity, gender, national origin and religion in areas ranging from 
voting to employment and education. Despite many advances, our country 
is still far from realizing the goals of that legislation.
    Our Supreme Court recently reversed laws that have long protected 
minority voting. African-American, Latino, and Native Americans 
continue to experience disproportionately high unemployment, 
incarceration, and poverty rates. Moreover, according to the most 
recent government reports, African-Americans and migrants make up the 
bulk of hate crimes victims in this country. Images of a wave of 
children trying to cross the U.S. southern border--under the most 
desperate and dangerous circumstances--have been exploited to fuel 
already high levels of anti-migrant prejudice in some circles in this 
country. These are all issues that will be rightly reviewed by the 
United Nations Committee on the Elimination of All Forms of Racial 
Discrimination (CERD) this August when our country comes before the 
Committee.
    The racial profiling of minorities, migrants, and Muslims in cities 
and at borders continues. Muslims, Sikhs, Jews and others continue to 
be targets of violence and hate as displayed by the tragic murders at 
Jewish centers in Kansas earlier this year--a testament to the need for 
participating States to adopt a set of concrete measurable actions to 
combat anti-Semitism during this year's commemoration of the tenth 
anniversary of the landmark Berlin Conference. As one of the original 
members of this Commission to call for the OSCE to address the problem 
of anti-Semitism in the region, I cannot underscore enough the need to 
move beyond words to action to address the problem.
    Increased physical attacks on Muslim women in concert with the 
European Human Rights Court's decision to uphold France's ban on face 
veils a measure directed against Muslim women--and efforts in several 
countries to adopt laws that would hamper the production of kosher and 
halal foods, have challenged the notion of welcoming cities for members 
of minority religions in several OSCE states.
    Last year our Commission hosted events with both Romani and Black 
(African Descent) leaders from Europe who similarly requested 
assistance to address the unabated violence and continuing 
discrimination impacting their communities. A review of the OSCE's 2003 
Roma Action Plan revealed that despite the passage of a decade, the 
situation of Europe's 15 million Roma had not drastically improved. 
Testimonies we heard last year from Black European leaders during the 
tenth anniversary of the OSCE's first racism conferences revealed 
similar findings. The ODIHR's Annual Hate Crimes Report and the EU 
Fundamental Rights Agencies findings that Roma and people of African 
descent are the greatest victims of violent hate crimes underscores the 
negative experiences of these communities.
    The shameful use of anti-Black racist remarks during last week's 
parliamentary debate by the far-right Polish MEP underscores the need 
for more efforts in the OSCE region to combat racism generally and 
specific initiatives for people of African descent.
    I reiterate earlier calls for a US-led international anti-racism 
fund that could address issues of violence and discrimination faced by 
minorities and migrants and, for a global State Department office that 
focuses on issues of people of African descent to complement ongoing 
tailored State Department human rights efforts for women, religious 
freedom, anti-Semitism, Muslims, youth, the LGBT community, and the 
disabled. As the world begins preparations for the International Decade 
for People of African Descent beginning in 2015, it is imperative that 
specific initiatives be tailored to address anti-Black racism in my 
country and abroad in addition to generally strengthening global 
efforts to fight racial discrimination.
    Additionally, the OSCE needs to adopt a proactive strategy to 
promote diversity and inclusive policies and practices in the region to 
meet 21st century demographic changes that are leading the entire 
region to be more racially, ethnically, religiously, and otherwise 
diverse. The OSCE could and should assist in the development of 
inclusive political leadership and counter recent election gains by 
political parties on prejudiced platforms.
    I look forward to reading a final report of your country visit to 
the United States and follow up conversations to discuss how we might 
join efforts to combat discrimination in this country and throughout 
the OSCE region.
    Thank you.
  Prepared Statement of Hon. Steny Hoyer, Member of Congress From the 
                           State of Maryland

    Thank you, members of the Commission, for this opportunity to make 
a statement. I want to thank the Commission for conducting this 
critical hearing as well as to extend my gratitude to the three 
witnesses, each of whom serves a critical function in advancing the 
OSCE's mission of protecting freedom and democracy.
    Nowhere is that mission more visible today than in Ukraine, where 
OSCE personnel have helped oversee elections, monitor the border, and 
report on key security developments. OSCE is on the frontlines of the 
somber work of collecting bodies from the wreckage of Malaysian Flight 
17 and securing the crash site.
    OSCE also continues to be focused on the scourge of racism and 
discrimination. In the Helsinki Final Act, signed in 1975, the 
participating states made this declaration: `The participating states 
will respect human rights and fundamental freedoms, including the 
freedom of thought, conscience, religion or belief, for all without 
distinction as to race, sex, language, or religion. . . . [They] 
recognize the universal significance of human rights and fundamental 
freedoms, respect for which is an essential factor in the peace, 
justice, and well-being necessary to ensure the development of friendly 
relations and cooperation among themselves as among all states.'
    Your work as personal representatives to the OSCE on these issues 
is integral to the organization's overall effort. Never has your work 
been more important.
    Anti-Semitism and other forms of racism and xenophobia have been on 
the rise in recent years in the OSCE region, and in recent days we have 
seen disturbing protests in France and elsewhere that have included 
anti-Semitic attacks. I sent a letter last week to the president of the 
Abravanel Synagogue in Paris expressing solidarity with his 
congregation in light of an incident on July 13, in which a mob 
protesting Israel's defensive actions against Hamas besieged the 
synagogue and began throwing stones and other objects at the building 
and its security guards. At the same time, we hear too frequently of 
anti-Semitic and other racist chants at sporting events across the 
continent as well as entertainers who make comments disparaging the 
Holocaust and celebrating Nazism.
    We've seen what these forces can do, and we must never forget the 
tragedies of the twentieth century that took so many innocent lives.
    Russia's proxy war to `defend minorities'--as they call it--in 
Ukraine is particularly offensive in light of this history. It cuts at 
the very order the OSCE and its supporters protect. The first and 
second world wars were instigated, in part, as a result of the pretext 
of `protecting' ethnic minorities abroad. Russia is now using that same 
argument to tear at the very heart of the international order for peace 
and stability that was established over the last century at the cost of 
many American and allied lives--and we cannot let that happen.
    ``That's why today's hearing is so critically important. I thank 
the Commission for continuing to make these issues a priority and for 
making a strong stand against these forms of hatred that threaten to 
undermine our freedom.
                Prepared Statement of Rabbi Andrew Baker

    At the outset I want to express my appreciation for the role that 
you, Senator Cardin and Representative Smith, have played in particular 
and the Helsinki Commission more generally. My memory and experience go 
back long enough to know firsthand that so much of the OSCE and ODIHR 
work on fighting anti-Semitism and combating intolerance more 
generally--activities that include the first international conferences, 
important declarations, monitoring and police training programs, 
educational initiatives, and even my own current position and that of 
my two colleagues--can really be traced back to the hearings and 
resolutions and advocacy efforts that you initiated here. So it is a 
special pleasure and privilege for me to be present this morning.
    The ongoing conflict in Gaza has sparked anti-Israel demonstrations 
in many places, with notably large numbers of angry protesters in 
several European capitals. Many are carrying placards and spewing 
rhetoric that is clearly anti-Semitic. A week ago in Paris crowds 
shouted ``Death to the Jews,'' and laid siege to a synagogue with two 
hundred worshipers inside, leading the Interior Minister to ban further 
demonstrations. But unauthorized demonstrations in France, Germany and 
elsewhere still continue.
    Ten years ago the participating States of the Organization for 
Security and Cooperation in Europe (OSCE) meeting in Berlin adopted the 
Berlin Declaration, which stated in part that, ``[We] declare 
unambiguously that international developments or political issues, 
including those in Israel or elsewhere in the Middle East never justify 
anti-Semitism.''
    Events taking place today in the OSCE region show how important it 
is to remember those words. They are a stern rebuke to those who would 
seek to excuse the anti-Semitism or rationalize it. And they are a 
clear call to political leaders to speak loudly and act quickly to 
condemn the anti-Semitic attacks and ensure that all available legal 
measures are taken to prevent further outbreaks.
    I would have hoped that as we are already halfway through our 
current mandate I could report to you on the findings of our OSCE 
country visits, which is a major component of our work. Unfortunately, 
we have so far not undertaken a single, joint visit until this one to 
the United States. A second visit has now been scheduled for Denmark in 
September. Other countries have been identified, and I know that the 
Swiss Chairmanship is hopeful that we might also pay visits to Russia 
and Turkey. But so far nothing more has been fixed. The Swiss have 
facilitated discussions with the UN in Geneva and the Council of Europe 
in Strasbourg in the belief that we might learn from their experience 
and take advantage of the information they have gathered. This may 
prove to be true, but it will only be truly demonstrated via our own 
country visits.
    I should point out that I did make a special visit to Ukraine on my 
own in late April, as a way of responding to the extraordinary 
situation at the time and the heightened attention that contesting 
parties were giving to charges of anti-Semitism. That report has been 
completed and issued and is appended to this testimony. I should note 
that one of the special challenges was to separate anti-Semitic 
incidents that were determined to be provocations by outside actors 
from what might otherwise be attributed to local elements. My visit 
occurred at volatile time. (An OSCE military monitoring mission was 
being held hostage in eastern Ukraine.) And I am grateful for the 
assistance provided to me by the Swiss Chairmanship that made the visit 
possible.
    Of course there have been other important and troubling 
developments with regard to anti-Semitism in the OSCE region which I 
would like to address.
    The murder of four people at the Jewish Museum of Brussels in June 
apparently carried out by a self-radicalized Islamist extremist 
reminded us of the special security needs confronting Jewish 
communities in Europe. In many ways it was similar to the murder of 
three young children and a father that was carried out in Toulouse, 
France in 2012. I had the opportunity to address issues of security 
with authorities in both Belgium and France during country visits 
undertaken last year. While I believe they are aware of the dangers 
confronting Jewish communities--although the new challenges posed by 
radicalized Jihadists returning from Syria are only beginning to sink 
in--they and most other OSCE participating States have not really 
adjusted to this new reality. This issue was taken up at length in June 
2013 in Berlin at a high level expert conference, Addressing the 
Security Needs of Jewish Communities in the OSCE Region: Challenges and 
Good Practices. A summary report of the conference is appended to this 
testimony. (http://www.osce.org/odihr/105253?download=true) Although 
not binding, the participants offered a number of important 
recommendations to participating States which are only more relevant in 
light of recent developments.
    Members of this Commission will recall that ten years ago this year 
the OSCE organized a high level conference on anti-Semitism which was 
hosted by the German Government in Berlin and also issued the important 
Berlin Declaration. I know you were interested in marking this 
important anniversary and using it as an opportunity to reexamine the 
problem and to secure renewed commitments by governments. I am pleased 
to report that under the current Swiss Chairmanship a high level event 
has now been scheduled for November 12-14, and it will again be hosted 
by the German Government in Berlin. Both Swiss Foreign Minister (and 
OSCE Chairperson-in-Office) Didier Burkhalter and German Foreign 
Minister Frank-Walter Steinmeier will be present, and we hope that 
other participating States--including the US--will also attend at a 
similarly high level. The Berlin gathering will also include an 
expanded NGO forum with special attention given to student 
participation.
    Among the issues scheduled to be discussed in Berlin are the 
security challenges facing Jewish communities, responding to hate on 
the Internet, the role of political leadership in the fight against 
anti-Semitism, the impact of growing opposition to ritual circumcision 
and kosher slaughter, and (with particular relevance to the current 
situation) the impact of the Middle East conflict on European Jewish 
communities.
    I welcome the opportunity to discuss any of these issues with 
Members of the Helsinki Commission.
                        country visit: ukraine,
 report of the personal representative of the osce chair-in-office on 
                        combating anti-semitism,
                          rabbi andrew baker,
                           april 27-30, 2014
    Although organized on short notice, I met with a wide range of 
Jewish leaders and representatives in Ukraine, including rabbis, 
organizational directors, researchers and student activists. They are 
not of a single opinion but surprisingly there was a general agreement 
on several broad issues. Not all of them were active participants in 
the Maidan demonstrations, but all do view the ensuing developments, 
including the ouster of the Yanukovych regime and the new government 
quite positively. Notwithstanding the situation in Crimea and in the 
east of Ukraine and the uncertain geopolitical developments, they are 
largely optimistic that given the opportunity Ukraine may now be ready 
to forge a genuinely pluralistic society.
Provocations and Propaganda
    In the last decade there have been relatively few reported 
incidents of anti-Semitic violence. Thus, the fact that four such 
incidents have occurred since January this year has been a cause for 
concern. These included two knife attacks on individual Jews leaving 
synagogue services in January and an arson attack and anti-Semitic 
graffiti on two synagogues. Additionally, on April 15, Donetsk Jews 
were presented with leaflets containing what looked like an edict 
demanding that they register before the new, self-appointed regional 
authorities or face the confiscation of their property. Because of 
their rarity and occurring at a time of political upheaval these 
incidents received significant international attention. Russian media 
in particular claimed that the January attacks were a result of the 
presence of ultra-nationalists who had come to Kyiv to participate in 
the Maidan demonstrations.
    However, by all accounts of Jewish leaders each of these incidents 
is believed to have been a provocation, either launched by the previous 
Yanukovych government or by pro-Russian nationalists. To date no one 
has been apprehended and charged in these attacks, although government 
officials are taking investigative measures and believe they will be 
successful in doing so. Meanwhile, Jewish community leaders insist that 
there is no credible evidence to tie these incidents to either the 
right wing Svoboda Party or ultra-nationalist Right Sector, despite the 
accusations from abroad.
    These Ukrainian Jewish leaders also shared their irritation at the 
public comments being made by some Jewish voices in Russia, which 
described a far more precarious state of affairs for the Jews of 
Ukraine than the reality on the ground would indicate. They suggested 
that such comments were the result of coercion on the part of the 
Russian government or simply that some of them have had long-time, 
close relations with the Kremlin. Many Ukrainian Jewish leaders signed 
an open letter to Russian Federation President Putin charging him with 
misrepresenting the problem of anti-Semitism in Ukraine. A few of these 
leaders reported that they were now being pressured to rescind their 
signatures.
    This problem has not been confined to misreporting or exaggerating 
the degree of anti-Semitism. They also report a campaign in the Russian 
media that has intentionally twisted the truth and offered entirely new 
fabrications. For example, television stories portrayed Jews in Crimea 
in the aftermath of its annexation by Russia celebrating the Passover 
holiday, with the message that only now could they do so freely. 
Although the vast majority of Crimean Jews supported the Russian 
takeover, they had long been free to practice their religion without 
any difficulty. Russian media carried select accounts of rabbis voicing 
fear and concern, but presented them in entirely false ways. Thus, the 
Rabbi of Simferopol who had publicly opposed annexation and as a result 
was fearful of remaining fled the Crimean peninsula. Russian television 
reported his departure but described it as occurring because of 
Ukrainian anti-Semitism. The Rabbi of the Choral Synagogue in Kyiv 
warned his congregants at the height of the violence in the Maidan 
demonstrations to stay away from the city center. His warnings were 
repeated in news accounts and elsewhere, but presented as though he 
were calling for Jews to leave Kyiv or even the country entirely.
Danger from Right Wing Parties
    There continue to be anti-Semitic incidents in Ukraine that cannot 
be blamed on outside elements. Researchers from the Euro-Asian Jewish 
Congress (EAJC) monitor these (largely non-violent) incidents of anti-
Semitism in Ukraine and publish regular reports. Anti-Semitic and 
xenophobic attitudes are also present in Ukrainian society. But how 
significant a problem this is and to what degree it poses a genuine 
threat are subject to some debate within the Jewish community. The 
nationalist, Svoboda Party is most frequently cited as a source for 
political, anti-Semitic rhetoric. Its leaders frequently use a 
derogatory term for Jew--much like ``kike'' in English--in their public 
speeches. They were also responsible for presenting an anti-Semitic 
nativity play during the December demonstrations at the Maidan. The 
party's stronghold in Western Ukraine and its veneration of Stepan 
Bandera, a World War II nationalist who was allied with the Nazis, have 
been the source of some tension with the Jewish community.
    Svoboda emerged during the demonstrations as one of the three 
opposition parties to eventually forge the government. Some Jewish 
leaders believe the Maidan events genuinely served to moderate 
Svoboda's nationalist and anti-Semitic ideology, and they maintain that 
a real change in the party's thinking has occurred. Others are more 
skeptical, suggesting that they were only being careful in their public 
statements because of the intense international scrutiny. One observer 
maintained that for now the party had the only enemy it really needed--
Russia--but if and when things change, it will again find Jews to be 
the ready scapegoat. There were still others who maintained that this 
debate missed a larger reality. They cited opinion surveys showing a 
significant decline in the party's popularity, suggesting that it might 
not even secure enough votes to remain in Parliament. According to 
these analysts, the party's support was never due to its nationalist--
and anti-Semitic--agenda, but instead it received the votes of those 
who wanted to protest against the Yanukovych government, and now this 
is no longer a basis for support.
    The Right Sector is a collection of extremist and neo-Nazi groups 
that gained prominence at the Maidan when its militants confronted the 
violence of the state authorities. The current government shuns them, 
and the Jewish community has little contact with them. However, the 
Right Sector leaders have also been careful in their public actions. 
They initiated a meeting with the Israeli Ambassador to assure him that 
they would refrain from making any anti-Semitic appeals. Right Sector 
members were among the first to respond to the appearance of anti-
Semitic graffiti on a Holocaust memorial in Odessa with a well-
publicized clean-up campaign. Most Jewish leaders believe these are 
only temporary tactics and do not really expect Right Sector members to 
temper their extremist views. But at this point their numbers appear to 
be too small to have any impact on the coming elections.
Longer-term concerns
    Both Jewish organizations and other NGOs say that most anti-Semitic 
incidents and hate crimes more generally likely go unreported in 
Ukraine. This is due to a general lack of trust in the police, a record 
of corruption, and police officers' inability in knowing how to 
identify and how to respond to such incidents. In the aftermath of the 
Maidan demonstrations and February crack down by the previous regime on 
the demonstrators, overall trust in the police reached a new low. The 
new authorities have a significant challenge in restoring trust and 
developing the necessary competence.
Physical Security
    Until recently violent, anti-Semitic incidents had been quite rare. 
As a result, little attention had been given to increasing the physical 
security of synagogues and other Jewish institutions. However, the 
attacks of this year have changed the thinking of community leaders. 
Whether they stem from outside provocateurs (as most believe) or from 
local Ukrainian sources, they have created a new level of concern. As a 
stopgap measure and with the support of private donations, Jewish 
communities are installing security cameras and hiring their own 
security guards. So far this has been limited to major cities, such as 
Kyiv, Odessa, and Dnepropetrovsk, but such protection is still lacking 
in many smaller communities. How active and responsible police 
authorities will be in the event of an attack is uncertain. (The Reform 
Rabbi of Kyiv does say that an alarm at the community's new synagogue 
and meeting space is connected directly to the police and will bring a 
response in three minutes.) Clearly, a comprehensive review of both the 
immediate and long-term security needs of Jewish community institutions 
is in order.
Changing Attitudes of Ukrainians and Ukrainian Jews
    For some of the young, Jewish students who volunteered their time 
to participate in the Maidan demonstrations, it was their first 
experience of revolutionary change. For some older members of the 
community who remember both 1989 and 2004, it was a third occasion. And 
yet both groups seem to share a sense of guarded optimism and a belief 
that this time Ukraine could ``get it right.'' They see in their own 
participation and the acceptance with which it was greeted evidence 
that the new leaders of Ukraine--and Ukraine society more generally--is 
ready to accept the model of a diverse and pluralist Ukraine, one where 
minorities are fully valued and integrated. They experienced few if any 
anti-Semitic encounters; far more frequently they were welcomed and 
embraced. Several made special note of the success of the recently 
appointed governor of the Dnepropetrovsk Region, Ihor Kolomoysky, whose 
Jewishness is well-known. Kolomoysky's success and use of his own funds 
to equip the region's military and police have made him a hero 
especially among nationalists in Western Ukraine. He has proven that it 
is possible to be both Jewish and a Ukrainian patriot.
    Jewish representatives have also noted that the leaders of the new 
government are outspoken in their condemnation of anti-Semitism. They 
have reacted quickly and strongly, in contrast to previous governments. 
They also report that a number of younger municipal leaders, such as 
the mayors of Lviv and Rava Ruska, have promoted an inclusive, non-
nationalist agenda. Despite Svoboda's local political strength, it was 
prohibited from participating in the Lviv Maidan demonstrations. Both 
mayors also announced special, Russian-speaking days to promote the 
bilingual nature of the country.
Confronting the Holocaust in Ukraine
    Jewish scholars in Ukraine have described exchanges in the past 
with their non-Jewish colleagues where the Holocaust is referred to as 
``your history'' while Ukrainians point, for example, to the Holodomor 
(Great Famine) as ``ours.'' This too may be changing in the aftermath 
of the Maidan demonstrations, where one Holocaust scholar believes that 
there may now be a new willingness to accept all of this as Ukrainian 
history, open to study and even critical analysis. Over one and one-
half million Ukrainian Jews were murdered in the Holocaust, most of 
whom lie buried in mass graves that are frequently unmarked and 
unprotected. The development of teaching materials on the Holocaust and 
the training of teachers are in their early stages. The International 
Holocaust Remembrance Alliance (IHRA), an intergovernmental body of 31 
countries, has so far been unsuccessful in convincing Ukraine to join 
the alliance, but there is some hope that now this too may change.
Ukrainian Government Activity
    My visit to Kyiv came at a time of increasing crisis, with the 
government confronting pro-Russian militants in several eastern cities 
and intense negotiations to secure the release of OSCE military 
monitors who had been taken hostage. In such a climate it was not 
always easy to focus on long-term strategies to address the problems of 
anti-Semitism. But I am grateful to Ukrainian authorities for arranging 
appropriate, high level meetings covering the full range of my mandate. 
(A list of the officials with whom I met can be found in the appendix 
to this report.)
State Security Service
    A special unit on anti-Semitism and xenophobia has been established 
in the Security Service of Ukraine and tasked with the focus of 
preventing hate crimes. Its officials have already initiated meetings 
with civil society representatives and with the Israeli ambassador and 
other diplomats and are is open to international cooperation, advice 
and assistance. A telephone hot line and an Internet link exist in the 
Security Service of Ukraine to facilitate individual reporting of 
incidents, including hate crimes.
    Officials spoke candidly about the challenges they face in 
reforming law enforcement bodies, noting that they are hampered by the 
corruption that was common during the previous regime.
    The Chairman of the Security Service reported that they had 
successfully identified the source of anti-Semitic flyers that were 
distributed to Jews in Donetsk, which they trace to a high official of 
the former Yanukovych government now living in Russia. It is not clear 
when this evidence will be made public.
Ministry of Education and Science
    Government policy provides support for the education of national 
minorities in their own languages. Recognizing that Hebrew is the 
traditional language of the Jewish people, Ukrainian schools offer some 
classes in Hebrew to 3,200 students, while 411 students are studying 
Hebrew as a second language.
    Several years ago teaching materials designed to combat anti-
Semitism were developed by ODIHR and the Anne Frank House in 
cooperation with Ukrainian civil society partners, and these materials 
are being used in most of the country's regions. There are additional 
programs that focus on Holocaust education, undertaken with the support 
of the governments of Switzerland and Norway and in cooperation with 
Holocaust education centers in Kyiv and Dnepropetrovsk. The Ministry 
also works with the VAAD of Ukraine in organizing visits for students 
to Jewish memorial sites. Ministry officials spoke about the shortage 
of qualified Hebrew teachers and the need for more training to assist 
teachers who are covering Jewish subjects.
Foreign Ministry and Ministry of Justice
    New laws have been drafted and introduced as amendments to the 
legal code that focus on preventing discrimination. They are designed 
to bring Ukrainian law into alignment with European standards and will 
broaden the definition of discrimination and also convey additional 
authority to the Ombudsman Office in this area. Both Ministries 
anticipated that this legislation would be adopted by the Parliament in 
the near future.
    The Ministry of Justice retains the authority to initiate in court 
the banning political parties which are determined to be extremist and 
anti-constitutional in nature or which violate other provisions of the 
Constitution, the Law on Political Parties, or other laws of Ukraine. 
Two such parties--Russian Block and Russian Unity--were banned by court 
decision, and the Ministry of Justice is prepared to initiate the same 
proceedings with regard to similar parties in all regions of the 
country.
    There are intentions to hold a national plebiscite on June 15, 
which will address issues such as the unity of Ukraine, regional 
authority, and decentralization.
Ministry of Culture
    The Minister of Culture expressed the view that the Jewish 
community has been an important contributor to the development of 
Ukrainian culture and underscored the importance of acknowledging the 
shared history and experience of Ukrainians and Jews.
    He spoke of plans to appoint a special envoy responsible for 
national diversity as well as reestablishing the consultative committee 
on the rights of national minorities. This committee had been housed 
within the Cultural Ministry, but there is some discussion now about 
having it report to the Cabinet of Ministers, as the issues it will 
address cover several Ministries.
    The Minister also indicated the willingness of the Ministry of 
Culture to study the possibility of engaging with the International 
Holocaust Remembrance Alliance as an observer or eventual member and 
said he would coordinate this with the Foreign Ministry.
Ministry of Internal Affairs
    Under current practice this Ministry--responsible for policing and 
pre-trial investigations--does not identify citizens by ethnicity, 
which would appear to hamper the ability to address hate crimes in 
general and anti-Semitic crimes in particular. They do take note of 
attacks on foreigners, and three cases this year (from over 300) 
involved attacks on ``citizens of Israel.''
    Authorities offered assurances that the recent, violent incidents 
of anti-Semitism are being investigated and the perpetrators will be 
successfully identified and prosecuted. However, no information was 
provided on who these suspects are or when any public announcement is 
likely to be made. In light of the international attention that these 
cases have received, I urged the Ukrainian government to make public 
the evidence it has as soon as it has been verified.
    In 2012, the Ministry of Internal Affairs signed a memorandum of 
understanding with ODIHR to launch the implementation of the Training 
Against Hate Crime for Law Enforcement (TAHCLE) to provide police 
training on dealing with hate crimes. In light of the multiple 
challenges that have been voiced during this visit--the previous 
corruption in the police force, the reluctance of citizens to report 
hate crimes, and the limited skills and experience the police now have 
in responding to hate crimes--there should be strong interest in 
engaging with ODIHR to implement this training. Officials spoke of 
resuming this cooperation when the overall situation in the country 
improves.
                            osce commitments
    Since the OSCE held the first conferences on anti-Semitism in 2003 
and 2004, participating States assumed responsibility for addressing 
this problem, as provided for in subsequent Ministerial Council 
Meetings (MC Decisions No. 12/2004, No. 10/2005, No. 13/2006, No. 10/
2007, No. 9/2009, and No. 3/2013). In particular, they pledged to enact 
a comprehensive set of measures to respond to violent manifestations of 
anti-Semitism as well as committing themselves to implement educational 
activities to raise awareness about anti-Semitism and promote 
remembrance of the Holocaust. The commitment to address and respond to 
anti-Semitism and other biases has been part of the OSCE's work in the 
human dimension of security. It is further reflected in the 
declarations issued at OSCE High Level Conferences in Berlin (2004), 
Cordoba (2005), Bucharest (2007) and Astana (2010). The full texts of 
these MC decisions and OSCE declarations, along with relevant 
declarations of the OSCE Parliamentary Assembly can be found here: 
http://tandis.odihr.pl/?p=ki-as,dec-sect
                            recommendations
    <bullet> The Government of Ukraine in particular and the unit on 
anti-Semitism and xenophobia in the Security Service of Ukraine should 
avail themselves of the assistance of ODIHR and the Personal 
Representative in evaluating the security needs of Jewish community 
institutions and other relevant recommendations that were presented at 
the June 2013 OSCE Expert Meeting, ADDRESSING THE SECURITY NEEDS OF 
JEWISH COMMUNITIES IN THE OSCE REGION: CHALLENGES AND GOOD PRACTICES. 
(http://www.osce.org/odihr/105253)
    <bullet> The Ministry of Internal Affairs should renew its 
cooperation with ODIHR in the implementation of police training to 
address hate crimes, as provided for in the 2012 Memorandum of 
Understanding, and should avail itself of ODIHR assistance in data 
collection on hate crimes.
    <bullet> ODIHR is also prepared to provide hate crime training for 
new staff members of the Ministry of Internal Affairs and the Security 
Service of Ukraine who will be dealing with hate crime and anti-
Semitism.
    <bullet> The Ministry of Culture and Ministry of Foreign Affairs 
should engage with the current chair (United Kingdom) of the 
International Holocaust Remembrance Alliance to secure observer status 
and eventual membership in IHRA. ODIHR in cooperation with IHRA would 
be prepared to help organize a meeting in Ukraine to take stock of 
existing initiatives and explore avenues for multilateral cooperation 
in the area of Holocaust education and research.
    <bullet> The Ministry of Education and Science should extend the 
use of ODIHR teaching materials on anti-Semitism to encompass all the 
regions of Ukraine and ensure that sufficient training is provided for 
the needed number of teachers.
    <bullet> Government officials should continue to speak out strongly 
and swiftly in response to incidents of anti-Semitism and other 
manifestations of intolerance.
    <bullet> Government authorities are encouraged to complete and make 
public the findings of investigations into the violent anti-Semitic 
attacks that occurred earlier this year.
                 Prepared Statement of Alexey Avtonomov

    AL in police responses and a lack of capacity of NGOs to monitor 
and report on the phenomenon contribute to the problem of under-
reporting. Only Czech Republic, Poland, Serbia and Sweden provided 
information on hate crimes targeting Roma and Sinti. Information from 
eight NGOs provided information on anti-Roma incidents in 12 
participating States is also presented below.
    Information provided to ODIHR highlights some major concerns over 
the past year such as the intolerant discourse where racist and 
xenophobic rhetoric stigmatising migrants and Roma, foreigners and 
migrants, and People of African Descent by portraying them as causes of 
country's economic woes and as threats to society. Worryingly, many 
victims do not report these incidents to law enforcement or the 
authorities. Excessive force against or ill-treatment of Roma, 
including, for example, in the course of evictions or during stop-and-
search actions by the police, can contribute to a lack of trust in the 
authorities. This, combined with a lack of means and knowledge on the 
part of Roma communities to monitor and report hate crimes means that 
these are likely significantly under-reported. Additionally, during the 
recent campaigns for the European Union Parliament elections in May 
2014, public and political discourses focussed on ``immigration'' as a 
political and social problem that needed to be addressed. This rhetoric 
provided succour to far right political parties and interests as 
evidenced by the subsequent successes of many of these parties in their 
respective elections.
    Whilst acknowledging the challenge for participating States to 
ensure both freedom of expression and freedom of association, they must 
also make sure that people and communities feel secure and safe. 
Responses to these particular developments need to be robust, 
expeditious and clear. Authorities and political leaders need to 
abstain from using intolerant rhetoric and to firmly and unequivocally 
condemn all instances of hate speech in public discourse. They should 
also utilise the expertise of ODIHR to assist them in prevention and 
responses to hate crimes, hate speech, discrimination and all forms of 
xenophobia. The US Mission to the OSCE has provided significant support 
to ODIHR in this regard. They have generously provided financial 
support for a variety of PAD projects starting in 2011 with the 
Roundtable for People of African Descent in Vienna, as well as 
providing logistical and planning support (along with the US Helsinki 
Commission) for the PAD study tour in November 2013. Ambassador Baer 
met with the Civil Society representatives who were recipients of US 
funding to discuss the implementation of their respective projects 
combatting racism and xenophobia faced by PAD communities on the 
occasion of the International Day Against Racism in March 2014.
                          hate on the internet
    The OSCE have long recognized the danger of unfettered hate on the 
internet and tasked ODIHR to be ``the link between the use of the 
Internet and bias-motivated violence'' (MC Decision 9/09)--whilst 
acknowledging the challenge for participating States to ensure the 
freedom of expression, they also have a duty to promptly renounce 
statements by public officials and ensure robust intervention whenever 
comments expressed on the internet present a threat. For example, some 
of the incidents such as neo-Fascist rallies in some Roma 
neighbourhoods mentioned earlier, are organized and promoted online. 
Monitoring of these activities by law enforcement and civil society 
organizations is paramount in tackling this mendacious activity as well 
as ensuring that authorities can fulfil their tasks of providing 
security to all citizens and communities.
                       gender and discrimination
    Through their experiences conducting focus groups with victims 
ODIHR recognised that there was a need for a stronger gender 
perspective in combatting racism and xenophobia in the OSCE region. 
ODIHR subsequently conducted a workshop for women of African descent in 
Warsaw in May, 2014. The two-day workshop covered many topics--
structural racism, access to healthcare, mental health, domestic 
violence, lack of representation by African women (role models in 
public and political spheres), female genital mutilation (FGM) and many 
others. Many recommendations were presented specifically to OSCE. These 
include:
    1. ODIHR Training specifically for women of African descent
    2. Multicultural training for education and health personnel and 
officers
    3. African women participation in local grassroots politics and 
community representation--local governments, state authorities, law 
enforcement, judiciary, etc.
   anti-romani rhetoric, racially biased policy measures and violence
    The OSCE/ODIHR Status Report 2013 on the implementation of the Roma 
and Sinti Action plan notes negative trends in the proliferation of 
anti-Romani rhetoric, hate-speech, violence and biased (racist) policy 
measures in the OSCE region. The Status report covering the period 
between 2008 and 2013 notes a disturbing number of hate crimes against 
Roma, the use of extremist anti-Roma rhetoric, and continuing reports 
of police ill-treatment. The downward trends are linked to migration of 
Roma and Sinti who leave their homes seeking better employment 
opportunities and economic conditions in other countries, the 
scapegoating of Roma and Sinti in the context of economic difficulties 
and the rise of far-right political parties in some participating 
States which capitalize on anti-Roma sentiment among majority 
communities. The report notes that these parties--and, in some 
instances, mainstream parties as well--used anti-Roma rhetoric, 
including the motif of ``Gypsy criminality'' for electoral gains. 
Mainstream media also reflect negatively on Roma and Sinti leading to 
further intolerance.
                     intolerance against christians
    Bias against individuals on the basis of religion can take various 
forms. The extent and nature of attacks motivated by bias against a 
particular religion are influenced by a number of factors, including 
the minority or majority status of that religion in a given territory. 
Successive ODIHR hate crime reports have indicated that graffiti and 
vandalism against places of worship, the desecration of cemeteries and 
arson attacks against churches are some of the more common types of 
crimes motivated by bias against Christians and members of other 
religions
    In 2012, 35 participating States stated that they collect data on 
hate crimes motivated by anti-religious bias. Four participating States 
further disaggregate this data into sub-categories, such as ``non-
denominational'', ``Catholic'', ``Protestant'', ``other religions'', or 
``Jehovah's witnesses''. However, only seven countries provided 
information on this category of hate crime in 2012. The Holy See 
reported anti-Christian incidents in 12 participating States in 2012.
             Prepared Statement of Professor Talip Kucukcan

    In concert with ODIHR's annual report on hate crimes and ODIHR's 
workshops for Muslim communities on hate crimes, concerns were 
repeatedly raised that verbal assaults and threats against imams, 
physical attacks on Muslim women wearing headscarves and desecration of 
mosques and other Islamic sites are often not reported to the police, 
because Muslims believe that their complaints will not be taken 
seriously or that they will be victimized again. The latest annual 
report from ODIHR notes that only four States reported hate crimes 
against Muslims. These include Austria, Serbia, Sweden and the United 
States, while NGOs reported hate-motivated incidents in 14 countries. 
However reports from Muslim communities suggest there are a number of 
unreported incidents throughout the region.
    Intolerance against Muslims can also be seen in the numerous 
instances of anti-Muslim rhetoric by politicians and public figures, 
postings on the internet and other forms of social media. This nexus of 
intolerance--hate on the internet (``Cyberhate) and intolerant 
discourse--against Muslims is a burgeoning issue that participating 
States need to address. Whilst acknowledging the challenge for 
participating States to ensure the freedom of expression, they also 
have a duty to promptly renounce hate speech(es) by public officials 
and ensure robust intervention whenever comments expressed pose a 
threat to Muslim individuals and communities. The hostile rhetoric 
stigmatizing Muslims by portraying them as threats to social cohesion, 
who undermine social and cultural values continues to be prevalent in 
the OSCE region. Worryingly, despite being victims of hate crimes, many 
victims do not report these incidents to law enforcement or the 
authorities for a variety of reasons including a lack of trust in law 
enforcement and other state agencies. Under-reporting of anti-Muslim 
hate crimes and incidents is prominent and needs to be addressed by 
authorities.
    In order to explore how to build trust and increase reporting of 
hate crimes by Muslim communities and enhance co-operation between law 
enforcement and Muslim communities in combating anti-Muslim hate 
crimes, ODIHR, together with the Swiss Chairmanship, held an expert 
conference on this issue on 28 April.
    The expert conference brought together approximately 90 NGO 
representatives and government officials from 26 participating States. 
Some recommendations included suggestions to create sustainable 
consultation mechanisms between law-enforcement agencies and Muslim 
organizations in order to exchange information and views on evidence-
based, comprehensive policies, strategies and programmes concerning the 
security of Muslim communities; to encourage the creation of 
alternative dispute resolution mechanisms, in particular the use of 
mediators, in building trust between Muslim communities and law-
enforcement officers and ensuring the proper training of such people; 
to support civil society initiatives that seek to monitor and report 
anti-Muslim hate crimes, provide support for victims, raise awareness 
of anti-Muslim prejudice, and improve co-operation between public 
officials in the justice system and Muslim communities.
hate crime workshops for muslim community-based organizations and civil 
     society organizations dealing with intolerance against muslims
    With the aim of enhancing the capacities of civil society to combat 
hate crimes against Muslims, since 2011, ODIHR has delivered five 
workshops for non-governmental and community-based organizations. The 
objectives of these workshops were to provide insight on how to 
recognize hate crimes; to discuss how civil society organizations can 
monitor, report and respond to hate crimes against Muslims, based on 
examples of good practices from across the OSCE region; to present and 
inform participants about ODIHR's tools dealing with hate crimes and 
intolerance against Muslims. All workshops were organized in 
partnership with local non-governmental organizations which had close 
contacts with community-based organizations. In total, 147 civil 
society representatives and community leaders attended these workshops.
                        empowering muslim women
    Taking into account that women wearing headscarves are one of the 
most frequent victims of hate crimes, on 13 May 2014, in Warsaw, ODIHR 
held a focus group meeting on Muslim women. The event brought together 
17 Muslim women activists from 13 participating States. They discussed 
prejudice against Muslim women, their experience of discrimination and 
hate crime and the activities that Muslim women organizations can 
conduct in order to raise awareness about gendered aspects of anti-
Muslim stereotypes and support gender sensitive tolerance activities. 
They requested ODIHR's technical assistance and support for the 
empowerment of Muslim women to report and respond to violent 
manifestations of intolerance and discrimination against Muslim women.
 guidelines for educators on countering intolerance and discrimination 
       against muslims: addressing islamophobia through education
    ODIHR, in partnership with UNESCO and the Council of Europe, 
published the ``Guidelines for Educators on Countering Intolerance and 
Discrimination against Muslims'' in October 2011. The Guidelines focus 
on the characteristics of intolerance and discrimination against 
Muslims in the school context. They provide information on the key 
methodological principles and approaches which must be taken into 
account in addressing Islamophobia through education. They offer 
practical strategies for educators on how to prevent and respond to the 
manifestations of intolerance and discrimination against Muslims. This 
includes, but not limited to, tackling difficult situations, in 
particular, when a student or a teacher experience and witness an act 
of intolerance and discrimination, developing codes of conduct, 
promoting media literacy and adopting curriculum opt-out policies. The 
Guidelines have been enriched with examples of good practices from 
across the region, on-line resources and suggested reading materials.
    In partnership with UNESCO and the Council of Europe, ODIHR 
organized three regional meetings for educational authorities to 
promote the use of the Guidelines on ``Countering Intolerance and 
Discrimination against Muslims through Education for Societies in 
Transition''; on ``Globalization, Diversity and Social Cohesion in 
Educational Settings'' and the third on ``Challenging anti-Muslim 
Prejudice and Promotion of Mutual Understanding in Multicultural 
Societies through Education.'' The objectives of these roundtable 
meetings were to:
    1. Raise awareness of educators about the need for challenging 
anti-Muslim prejudice and provide information on the most effective 
pedagogical approaches identified in the Guidelines;
    2. Share examples of good practices and lessons learnt in 
educational efforts to counter anti-Muslim prejudice;
    3. Collect recommendations from educators on how to implement the 
Guidelines in national educational systems of participating States.
    The outcome of these meetings was the increased visibility of the 
Guidelines, which led to the publication of the op-eds in a number of 
teacher newspapers and educational journals as well as promotion of the 
Guidelines on the websites of the ministries of education and 
educational centers. These promotion activities resulted in the 
establishment of a large network of educators dealing with intolerance 
against Muslims. Since the beginning of the project, ODIHR reached out 
approximately to 200 representatives of educational authorities, expert 
groups and activists dealing with this topic.
    However, despite these activities conducted by ODIHR, it is 
possible to still observe continuing cases of attacks targeting Muslims 
and their property. Muslims are often portrayed as unable to integrate 
and Islam as incompatible with contemporary values. Discussion on the 
religious dress of Muslim women, ritual slaughter of animals or male 
circumcision seems to contribute to a perception that there is no place 
for Islam despite the fact that the OSCE region has been diverse and an 
example of peaceful coexistence for centuries. It is therefore 
necessary to continue our efforts and invest more to counter 
intolerance against Muslims.
                  Prepared Statement of Azra Junuzovic

    The Tolerance and Non-Discrimination Department focuses on 
increasing the implementation of OSCE participating States commitments 
to effectively prevent and respond to hate-motivated crimes and 
incidents. The Department also works with civil society organizations 
to build their capacity to recognize and monitor hate crimes. 
Furthermore, the Department also assists States to promote mutual 
respect and understanding, notably Holocaust remembrance.
        hate crimes and combating intolerance and discrimination
    Hate Crime--In line with its mandate, ODIHR has been collecting 
information on hate motivated crimes and incidents and responses to 
this phenomenon since 2008. ODIHR makes this information accessible on 
its website www.hatecrime.osce.org, which was launched on 17 June. 
ODIHR's website reveals substantial gaps in reported official data on 
hate crime covering 2009-2013, underlining systematic under-reporting 
and under-recording of this phenomenon across the region. At the same 
time, reports by civil society, international organizations and the 
media confirm that hate-motivated incidents are still a matter of 
concern. In 2014, 28 participating States and 105 non-governmental 
organizations from 40 participating States submitted information to 
ODIHR. The website aims to further publicize information received from 
participating States. Its aim is to reach out to new audience, garner 
the interest of experts and civil society and attract attention to this 
issue. Based on its findings, ODIHR provides a key observation for each 
participating State. ODIHR is currently processing information for the 
2013 edition of the report. In 2014, ODIHR will hold a training of 
trainers for OSCE, UNHCR and IOM field operations and organize annual 
meeting for National Points of Contact on Hate Crime from OSCE 
participating States.
    Combating Intolerance and Discrimination--In the spring, ODIHR 
organized two focus groups to obtain more information about experiences 
of discrimination and hate crimes by women of African Descent and 
Muslim women. As a follow-up to these events, ODIHR is planning to 
organize a train-the-trainer session for female civil society activists 
to build their capacity to raise awareness and speak about the issue of 
hate crime. Many activists noted the need to build effective 
relationships between public authorities and affected communities. To 
that end, ODIHR is piloting an activity in Austria. ODIHR is also 
planning to organize a focus group to obtain more information about 
experiences of racism. In April, ODIHR, in collaboration with the Swiss 
Chairmanship, organized an expert conference on the security of Muslim 
communities. This event followed on similar event organized under the 
Ukrainian Chairmanship in 2013. The upcoming OSCE Chair has expressed 
interest in organizing a similar conference on the security of 
Christian communities in 2015, as attacks on religious property and 
community centres remain a matter of concern. ODIHR organized two 
training events in Moldova and Italy to build the capacity of civil 
society organizations. ODIHR is also planning on organizing a training 
workshop for civil society in Poland.
               activities to improve government response
    Data collection--In 2014 ODIHR will publish Hate Crime Data-
Collection and Monitoring Mechanisms: A Practical Guide. Through ten 
practical steps, this publication gives suggestions to policy makers, 
criminal justice officials and civil society on how to improve their 
hate crime data collection mechanisms.
    Legislation--ODIHR continues to distribute Hate Crime Laws: A 
Practical Guide. Approximately 6,000 copies of the Guide have been 
distributed so far. It is available in six languages. In the last two 
years, despite ODIHR's efforts, no new requests have been received to 
review legislation.
    TAHCLE--Training against Hate Crime for Law Enforcement (TAHCLE) 
builds on ODIHR's previous training programme named Law Enforcement 
Officers Programme (LEOP), which was implemented in Croatia and Poland. 
It is a short, compact and flexible training designed to be integrated 
with other training efforts, drawing on existing resources and 
curricula of police training institutions.
    In Poland, TAHCLE was used to update the curriculum and training of 
around 70,000 police officers on how to recognize hate crimes. In 
Bulgaria, the Ministry of Interior signed the Memorandum of 
Understanding with ODIHR in 2011. The implementation in Bulgaria 
included the delivery of a training of trainers, the inclusion of 
TACHLE in the national curriculum for police cadets and for 
investigators. Following the implementation, ODIHR evaluated the 
programme and the results were presented to the Ministry of Interior in 
March 2014. In total, about 3000 Police officers were trained. ODIHR is 
discussing follow-up activities with the Bulgarian authorities and 
civil society organizations. As a follow-up to TAHCLE and as a part of 
a comprehensive approach to address hate crimes, ODIHR also trained 
civil society organizations in Bulgaria in 2013.
    In Ukraine, ODIHR and the Ministry of Internal Affairs signed a 
Memorandum of Understanding to implement TAHCLE in 2012. In 2012-13, 
ODIHR took part in the work of the National Implementation Working 
Group (NIWG) tasked with customizing the curriculum. ODIHR has already 
customized the curriculum and facilitated consultation between Polish 
and Ukrainian officials to share experience of how TAHCLE was 
successfully implemented in Poland. Political turmoil at the end of 
2013 led to the suspension of activities and ODIHR is now re-
establishing contacts with authorities.
    Montenegrin Police Academy signed the Memorandum of Understanding 
to implement TAHCLE in 2013 and the training of trainers session took 
place in November to equip 16 trainers with necessary skills to cascade 
the training. ODIHR conducted a follow-up visit in April 2014 to 
monitor implementation. TAHCLE has become an integral part of the 
Police Academy curriculum. Several workshops and meetings were 
conducted to share knowledge and skills acquired during the training. 
As a follow-up to TAHCLE and as a part of a comprehensive approach to 
address hate crimes, ODIHR also trained civil society organizations in 
Montenegro in 2013.
    The Italian Observatory for Security against Acts of Discrimination 
(OSCAD) signed a Memorandum of Understanding to implement TAHCLE in May 
2013. So far, ODIHR conducted six half-day workshops and trained 160 
National Police and Carabinieri officers. In July 2014, ODIHR conducted 
a training of trainers for 29 National Police and Carabinieri 
instructors, who will cascade the TAHCLE programme curriculum into 
their training institutions.
    TAHCLE programme is being implemented in Kosovo since December 2011 
by the OSCE Mission in Kosovo. Around 350 police officers have been 
trained up to date.
    Finally, four other participating States have manifested interest 
in implementing TAHCLE. These include Albania, Latvia, Lithuania and 
the former Yugoslav Republic of Macedonia. ODIHR will seek to sign a 
Memorandum of Understanding with at least two of them in 2014.
    Prosecutors--ODIHR and the International Association of Prosecutors 
have developed a practical guide for prosecutors entitled Prosecuting 
Hate Crimes: A Practical Guide. It will be published in October 2014. 
Additionally, ODIHR developed a training curriculum to build 
prosecutors' skills in investigating hate crimes. The newly created 
Prosecutors and Hate Crimes Training (PAHCT) programme will be 
implemented in a similar way to TAHCLE
    Prosecutors training was first conducted in Kosovo and in Ukraine 
(Crimea) in December 2011. This was followed by a trial training of 
trainers in July 2012 in Warsaw. In 2013, ODIHR held workshops for 
judges and prosecutors, or prosecutors and investigators, in Bosnia and 
Herzegovina, Moldova and the former Yugoslav Republic of Macedonia. In 
2014, ODIHR trained prosecutors in the Kosovo region <SUP>1</SUP> and 
Serbia. Implementation of PAHCT and the signing of the Memorandum of 
Understanding is currently being discussed with Bulgaria. Montenegro 
and Greece have expressed interest in its implementation. In October 
2014, ODIHR will deliver a workshop for Greek prosecutors.
    promoting mutual respect and understanding, including holocaust 
                              remembrance
    Participating States are committed to supporting education 
programmes on anti-Semitism and Holocaust education. Participating 
States have also committed to promote remembrance of the Holocaust. In 
this regard, participating States were encouraged to draw on ODIHR's 
expertise. ODIHR has developed technical-assistance programmes in co-
operation with a number of partners, including the Task Force for 
International Cooperation on Holocaust Education, Remembrance and 
Research, the Yad Vashem International School of Holocaust Studies in 
Israel, and Anne Frank House in Amsterdam.
    The following materials have been prepared by ODIHR:
    Teaching Materials to Combat Anti-Semitism--developed in co-
operation with the Anne Frank House; they aim to raise awareness among 
students on stereotypes and prejudices against Jews. (available at 
http://tandis.odihr.pl/?p=ki-as,tm);
    The Guide Addressing Anti-Semitism: Why and How? A Guide for 
Educators, developed with Yad Vashem; the Guide provides educators with 
facts, background information and good practices regarding how to 
address anti-Semitism in the classroom. (available at http://
www.osce.org/odihr/70295);
    Preparing Holocaust Memorial Days: Suggestions for Educators is a 
set of recommendations for teachers on how to plan commemoration 
activities connected with annual Holocaust Remembrance Days. The Guide 
will be updated in 2012 (available at http://www.osce.org/odihr/17827);
    Guidelines for Educators on Countering Intolerance and 
Discrimination against Muslims--developed with UNESCO and the Council 
of Europe: The Guidelines have been developed to support educators in 
primary and secondary education as well as in non-formal education to 
counter intolerance and discrimination against Muslims. They are 
intended for education policymakers and officials, teacher trainers, 
teachers, principals and head teachers, staff in teacher unions and 
professional associations, and members of NGOs. (available at http://
www.osce.org/odihr/84495)
    Teaching materials on combating anti-Semitism are available in 15 
languages and the implementation of teaching materials continues. In 
2014, ODIHR supported the organization of a meeting for the Anne Frank 
House and partner organizations on designing online interactive tool on 
bias and discrimination. ODIHR is also preparing a brochure to 
publicize lessons learned on the implementation of the teaching 
materials. Currently, ODIHR is negotiating a Memorandum of 
Understanding with the Italian Ministry of Education.
    Following the organization of three promotional roundtables, 
organized with the Council of Europe and UNESCO, ODIHR has presented 
the Guidelines to the Swedish authorities. ODIHR is now working with 
the Greek Ministry of Education to launch the Greek version of the 
Guidelines. In the fall, ODIHR and the Council of Europe will organize 
a workshop on combating hate speech and intolerance against Muslims 
aimed at assessing the scope of the issue.
                        holocaust memorial days
    In 2012, ODIHR published a report ``Holocaust Memorial Days in the 
OSCE Region''. It provides a country-by-country overview of the 
official commemorative activities that take place in OSCE participating 
States on Holocaust remembrance days. The publication shows that 37 
OSCE participating States have established an official memorial day 
dedicated specifically to the Holocaust. ODIHR is preparing an updated 
version of this publication that will be launched on 27 January, the 
International Day of Commemoration in Memory of the Victims of the 
Holocaust.
                           activities in 2015
    ODIHR will continue assisting OSCE participating States in meeting 
human dimension commitments in the field of tolerance and non-
discrimination to address the issue of hate crime. ODIHR will also, 
upon request, assist OSCE participating States in reviewing legislation 
pertaining to hate crimes and their alignment with international 
standards and OSCE commitments. Activities will include roundtables, 
workshops and training to exchange good practice and experience. They 
will be conducted in close co-operation with OSCE Field Operations and 
external ODIHR partners.
    ODIHR's priorities for 2015 include the delivery and implementation 
of TAHCLE and PAHCT training activities, enhancing co-operation with 
participating States by improving the number of countries that report 
to ODIHR on hate crimes and work with civil society, with a particular 
focus on women. ODIHR will also seek to engage and explore 
opportunities to work with parliaments to raise awareness about the 
role of parliamentarians in addressing hate crimes and reaching out to 
affected communities. ODIHR will also explore how to facilitate contact 
and dialogue between authorities and groups affected by manifestations 
of intolerance and hate crimes.
    As regards promotion of mutual respect and understanding, ODIHR 
will work with at least one participating State and sign a Memorandum 
of Understanding to implement the teaching materials on combating anti-
Semitism. ODIHR will also continue to work with Moldova and engage with 
another participating State to promote Holocaust remembrance. ODIHR 
will reach out to participating States to promote the use of the 
Guidelines for Educators on Countering Intolerance and Discrimination 
against Muslims and, pending availability of funds, engage with 
educators to explore the use of the Guidelines at the teacher training 
colleges.
                      opportunities and challenges
    The OSCE emerged as the leading international organization in 
addressing hate crimes, intolerance and discrimination in the region. 
The tools developed by ODIHR and the recently launched hate crime 
reporting website have been recognized as unique resources available to 
participating States, civil society and experts and have furthered 
awareness-raising efforts on the dangers and impacts of hate crimes. 
ODIHR's training programmes, built on the principles of partnership, 
flexibility and collaboration, have attracted the attention of 
participating States.
    However, despite these opportunities, the OSCE faces continuous 
challenges. Genuine political will to implement commitments to 
strengthen responses and prevention of hate crimes is lacking in many 
cases. Budgetary constraints hamper successful operation of ODIHR's 
programmes, in particular, TAHCLE, programmes for people of African 
descent and education activities on combating intolerance against 
Muslims.
             strengthening tolerance and non-discrimination
    Recommendations to enhance the role of tolerance and non-
discrimination are related to providing additional resources for 
ODIHR's programmatic activities, particularly TAHCLE and PAHCT.
    The Department's role should be strengthened to serve as a mediator 
and dialogue facilitator between authorities and civil society 
organizations to build trust and improve the security and stability of 
societies.
    While ODIHR has a mandate to serve as a collection point on hate 
crimes, ODIHR could be given the mandate to examine its key 
observations and dialogue with authorities to identify potential 
mechanisms for implementation of commitments in this area which would 
not be dependent on a formal invitation from a participating State.





                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
